<html>
<title> - THE FEDERAL AVIATION ADMINISTRATION'S CALL TO ACTION ON AIRLINE SAFETY AND PILOT TRAINING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                          THE FEDERAL AVIATION
                        ADMINISTRATION'S CALL TO
                        ACTION ON AIRLINE SAFETY
                           AND PILOT TRAINING

=======================================================================

                                (111-62)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
52-441                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)



                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
PARKER GRIFFITH, Alabama             HOWARD COBLE, North Carolina
MICHAEL E. McMAHON, New York         JOHN J. DUNCAN, Jr., Tennessee
PETER A. DeFAZIO, Oregon             VERNON J. EHLERS, Michigan
ELEANOR HOLMES NORTON, District of   FRANK A. LoBIONDO, New Jersey
Columbia                             JERRY MORAN, Kansas
BOB FILNER, California               SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JOHN BOOZMAN, Arkansas
LEONARD L. BOSWELL, Iowa             SHELLEY MOORE CAPITO, West 
TIM HOLDEN, Pennsylvania             Virginia
MICHAEL E. CAPUANO, Massachusetts    JIM GERLACH, Pennsylvania
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
MAZIE K. HIRONO, Hawaii              CONNIE MACK, Florida
HARRY E. MITCHELL, Arizona           LYNN A. WESTMORELAND, Georgia
JOHN J. HALL, New York               JEAN SCHMIDT, Ohio
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
JOHN A. BOCCIERI, Ohio               BRETT GUTHRIE, Kentucky
NICK J. RAHALL, II, West Virginia
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Babbitt, Hon. Randolph, Administrator, Federal Aviation 
  Administration.................................................     4
Brady, Dr. Tim, Past President, Aviation Accreditation Board 
  International..................................................     4
Cohen, Roger, President, Regional Airline Association............     4
Loftus, John Michael, Father of Madeline Loftus, on behalf of the 
  families of Continental Flight 3407............................     4
May, James C., President and CEO, Air Transport Association......     4
Prater, Captain John, President, Airline Pilots Association 
  International..................................................     4
Skiles, Jeffrey, Vice President, Coalition of Airline Pilots 
  Association....................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    96
Cohen, Hon. Steve, of Tennessee..................................    97
Costello, Hon. Jerry F., of Illinois.............................    98
Mitchell, Hon. Harry E., of Arizona..............................   108
Oberstar, Hon. James L., of Minnesota............................   109
Richardson, Hon. Laura, of California............................   115

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Babbitt, Hon. Randolph...........................................   117
Brady, Dr. Tim...................................................   126
Cohen, Roger.....................................................   146
Loftus, John Michael.............................................   157
May, James C.....................................................   172
Prater, Captain John.............................................   177
Skiles, Jeffrey..................................................   188

                       SUBMISSIONS FOR THE RECORD

Babbitt, Hon. Randolph, Administrator, Federal Aviation 
  Administration:................................................
      Response to question from Rep. Richardson, a Representative 
        in Congress from the State of California.................    36
      Response to request for information from Rep. Richardson, a 
        Representative in Congress from the State of California..    39
Brady, Dr. Tim, Past President, Aviation Accreditation Board 
  International, rebuttal to Jeffrey Skiles' testimony...........   139
Cohen, Roger, President, Regional Airline Association, responses 
  to questions from Rep. Costello, a Representative in Congress 
  from the State of Illinois.....................................   152


[GRAPHIC] [TIFF OMITTED] 52441.001

[GRAPHIC] [TIFF OMITTED] 52441.002

[GRAPHIC] [TIFF OMITTED] 52441.003

[GRAPHIC] [TIFF OMITTED] 52441.004

[GRAPHIC] [TIFF OMITTED] 52441.005

[GRAPHIC] [TIFF OMITTED] 52441.006

[GRAPHIC] [TIFF OMITTED] 52441.007

[GRAPHIC] [TIFF OMITTED] 52441.008

[GRAPHIC] [TIFF OMITTED] 52441.009

[GRAPHIC] [TIFF OMITTED] 52441.010

[GRAPHIC] [TIFF OMITTED] 52441.011

[GRAPHIC] [TIFF OMITTED] 52441.012

[GRAPHIC] [TIFF OMITTED] 52441.013



  HEARING ON THE FEDERAL AVIATION ADMINISTRATION'S CALL TO ACTION ON 
                   AIRLINE SAFETY AND PILOT TRAINING

                              ----------                              


                     Wednesday, September 23, 2009

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony 
regarding the FAA Call to Action on Airline Safety and Pilot 
Training. I will give a brief opening statement and then call 
on the Ranking Member, Mr. Petri, for his opening statement or 
any remarks that he may have, and then we will attempt to go 
directly to our witnesses.
    I welcome everyone to the Aviation Subcommittee hearing on 
the Federal Aviation Administration Call to Action on Airline 
Safety and Pilot Training. I think it is important that as we 
discuss airline safety and improving pilot training standards 
that we remember one of the important reasons why we are here 
today.
    On February 12, 2009, Colgan Air, doing business as 
Continetal Connection Flight 3407, crashed en route to Buffalo 
Niagara International airport. All 45 passengers and the four 
crew members died, as well as one person on the ground. Mr. 
Mike Loftus, his daughter Madeline was a passenger on Flight 
3407. I am pleased he is here again with us, joining us today 
to offer his testimony, and the Subcommittee extends our 
sincere condolences to you, as well as other family members and 
friends who lost loved ones in this tragic accident.
    While the NTSB continues to investigate the cause, the 3-
day public hearing on the accident clearly identified the need 
to closely examine the regulations governing pilot training and 
rest requirements and the oversight necessary to ensure their 
compliance with a particular focus on regional airlines.
    At the outset I would like to commend you, Administrator 
Babbitt, for your leadership and your quick response to these 
safety issues. You acknowledged early on that the practices in 
the regional airline industry are not acceptable, and you 
acted. Soon after our Subcommittee hearing on June 11, an 
airline safety and pilot training call to action was announced 
to help us gather information from the airlines and labor 
organizations to determine industry best practices and seek 
volunteer compliance with a number of safety initiatives. I 
believe that the call to action has helped focus the regional 
air carrier safety discussion in the aviation community, in 
Congress, and with the public.
    Today's hearing is the first of many oversight hearings on 
the status of the FAA's call to action. Over the past several 
months the FAA held 12 regional safety forums around the 
country. I understand that all were well attended.
    While there are positive indicators that the FAA and the 
stakeholders have made progress, there is also a lot that we do 
not know about the results of these efforts. One of the reasons 
we have raw and incomplete data is because the FAA did not 
impose or suggest firm deadlines for labor or industry to 
complete the recommended action items.
    On June 24, Administrator Babbitt wrote 105 airlines and 
eight unions asking for commitments to specific action items. 
Three months later less than half have responded to your 
request. As a result, we only have preliminary information 
regarding what specifically these organizations have committed 
to do. A response of less than 50 percent to the FAA is exactly 
why we cannot rely on voluntary compliance.
    I don't believe at this point you, Mr. Babbitt, nor the 
airline industry or the labor groups can tell us with any 
degree of confidence what the substance of the voluntary 
commitments are. That is why Congress must enact comprehensive 
safety legislation that will increase safety across the board. 
I know that we are expecting a more comprehensive report from 
the FAA on what progress that you have made sometime in 
December, by the end of the year. And the Subcommittee will 
convene another hearing to review what the FAA has proposed in 
order to measure your progress.
    Meanwhile, we intend to uphold our commitment to the 
families of Flight 3407 and the American public. This 
Subcommittee will continue aggressive oversight to strengthen 
airline safety and pilot training qualification standards. 
Congress has the ability to improve aviation safety standards, 
and that is exactly what we intend to do with H.R. 3371.
    As you will recall after the June 11 hearing on regional 
air carriers and pilot work force issues, Chairman Oberstar, 
Ranking Member Mica, Mr. Petri, and I made a commitment that we 
would work together to address many of the safety issues that 
were raised in the hearing. Based upon the input we received, 
which included ideas from Members of Congress and additional 
meetings with the FAA, the pilots unions, the airlines, and 
others in the aviation community, we introduced bipartisan 
legislation, H.R. 3371, in July. We had a specific goal in 
mind, to raise the bar on the minimum level of safety to ensure 
there is one level of safety across the industry.
    To address pilot qualifications the bill increases the 
minimum flight hours required to be hired as an airline pilot. 
There is a consensus among pilots and many in the aviation 
community that 250 flight hours is simply not enough, and that 
safety would be improved by raising these standards. Under H.R. 
3371, all prospective airline pilots would be required to 
obtain an airline transport pilot license, which is currently 
needed to be an airline captain. It requires a minimum of 1,500 
flight hours. Our goal is to ensure that both the first officer 
and the captain have the same minimum level of experience, 
training, and skills to transport passengers and crew safely.
    The ATP license also requires additional aeronautical 
knowledge, crew resource management training and greater flight 
proficiency testing. Some in the aviation community have 
expressed concerns with the provisions to require an ATP 
license. I think Administrator Babbitt had it right in his 
speech to the Airline Pilot Association, and I quote you, Mr. 
Babbitt, in that speech. If you think the safety bar is set too 
high, then your standards are set too low.
    Our bill is a comprehensive effort to consolidate what we 
know industry wide about aviation safety to improve safety 
performance going forward. That is why the call to action is so 
important. From the airlines, we need to know if they are using 
FOQA and ASAP and if they are working in partnership with the 
regional partners on specific and concrete ways to ensure the 
regional airlines adopt and implement the most effective safety 
practices. From the pilots, we need to know if they established 
and published a code of ethics to set expectations for 
professional behavior or have professional standards and an 
ethics committee. This is all valuable information and data 
that we need in order to evaluate pilot training and 
qualification programs.
    Before I recognize Mr. Petri for his opening statement, I 
would ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks and to permit submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    At this time the Chair recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Mr. Chairman, thank you for scheduling this 
important follow-up hearing to our June 11 hearing on air 
carrier safety. Well, as we all know, statistically, U.S. 
commercial aviation is very safe. Accidents remind us that 
there are improvements that still may be made and that there 
are lessons to be learned in these tragic losses.
    With today's hearing, we continue our focus on the common 
goal of improving that safety record even further. As the 
families of victims of Flight 3407 remind us, we can and must 
do everything in our power to ensure that what happened on the 
day that they lost their loved ones must never happen again. I 
believe we are all committed to that shared goal.
    In the aftermath of the tragic loss of Continental Flight 
3407 on February 12, 2009, this Subcommittee explored many 
issues relating to safety of the airline system with special 
emphasis on regional air carriers. In addition, Mr. Mica, Mr. 
Costello, Mr. Oberstar, and I introduced the bipartisan Airline 
Safety and Pilot Training Improvement Act of 2009 to address 
the critical safety issues considered at our hearing.
    At roughly the same time the FAA launched a call to action 
on air carrier safety, and I would like to join in thanking the 
Administrator for that effort and for joining us this morning 
and look forward to hearing his update on the progress of the 
wide-ranging initiatives concluded in the FAA's plan. I am 
interested in learning about the ongoing regulatory effort at 
the FAA to address pilot training, record availability, 
professionalism, and fatigue. Additionally, we will explore 
what improvements can be put in place to improve air carrier 
hiring practices and training oversight.
    I would especially like to thank Mr. Loftus, who is with us 
here today testifying on behalf of the families of Continental 
Flight 3407. Welcome back. I appreciate you and the other 
family members' insights and contributions to the discussion of 
how to best improve aviation safety. Your efforts here on 
Capitol Hill have been very helpful.
    In three of the five recent fatal regional air carrier 
accidents, the National Transportation Safety Board cited pilot 
performance as a potential contributory factor. In Flight 3407 
pilot performance seems to have played a role. I look forward 
to hearing from the Administrator and the pilots union what 
specific actions they are talking to improve peer auditing and 
professional conduct.
    Again, I want to thank the witnesses for their 
participation and yield back the balance of my time.
    Mr. Costello. The Chair thanks the Ranking Member and now 
will recognize and introduce the witnesses. The first witness 
that will be testifying is the Honorable Randy Babbitt, who is 
the Administrator for the Federal Aviation Administration; Mr. 
John Loftus, who is the father of Madeline Loftus, and he is 
here testifying on behalf of the families of Continental Flight 
3407. And I know that a number of family members and loved ones 
are in the audience here today at this hearing. Captain John 
Prater, who is the President of the Airline Pilots Association 
International; Mr. Roger Cohen, who is the President of the 
Regional Airline Association; Mr. James May, who is the 
President and CEO of the Air Transport Association; Dr. Tim 
Brady, who is the past President, Aviation Accreditation Board 
International; and Mr. Jeffrey Skiles, Vice President, 
Coalition of Airline Pilots Association.
    Gentlemen, I would ask you--we have a 5-minute rule. I 
would ask you to summarize your statements so that we have 
plenty of time for questions and a discussion about many of 
these issues. So the Chair now recognizes Administrator 
Babbitt.

STATEMENTS OF THE HON. RANDOLPH BABBITT, ADMINISTRATOR, FEDERAL 
    AVIATION ADMINISTRATION; JOHN MICHAEL LOFTUS, FATHER OF 
   MADELINE LOFTUS, ON BEHALF OF THE FAMILIES OF CONTINENTAL 
  FLIGHT 3407; CAPTAIN JOHN PRATER, PRESIDENT, AIRLINE PILOTS 
  ASSOCIATION INTERNATIONAL; ROGER COHEN, PRESIDENT, REGIONAL 
   AIRLINE ASSOCIATION; JAMES C. MAY, PRESIDENT AND CEO, AIR 
TRANSPORT ASSOCIATION; DR. TIM BRADY, PAST PRESIDENT, AVIATION 
  ACCREDITATION BOARD INTERNATIONAL; AND JEFFREY SKILES, VICE 
       PRESIDENT, COALITION OF AIRLINE PILOTS ASSOCIATION

    Mr. Babbitt. Chairman Costello, and Ranking Member Petri, 
Members of the Subcommittee, thank you for inviting me here 
today to discuss the FAA's Call to Action on Airline Safety and 
Pilot Training. As you are aware, on June 15, we made this call 
to action to promote a renewed and robust safety discourse 
within the aviation community.
    History has shown that we can implement safety improvements 
far more quickly and effectively when we work together to 
identify the problems and develop solutions. We have received a 
wealth of information from the call to action, and we are 
committed to using it to make the industry and the traveling 
public safer.
    To summarize our efforts here, as part of the Call to 
Action, I did send a letter to all part 121 operators and their 
unions requesting written commitments to adhere to the highest 
professional standards while this discourse was beginning. My 
letter also sought specific comments on several key topics, 
including pilot records, establishment of programs to monitor 
safety of flight operations and safety, and the development of 
professional standards and ethics committees by labor 
organizations.
    I can tell you that the responses that we received have had 
an overwhelming willingness shown to make these commitments. 
And while we haven't heard from everyone at this point, as I 
told them and Members of this Committee, I will use my bully 
pulpit going forward to gain their cooperation. And so I am 
prepared to make those who were unresponsive known to the 
public by the end of September.
    We also have prioritized the creation of new flight and 
rest rules based on fatigue signs as part of our Call to 
Action. An aviation rulemaking committee charged with making 
recommendations began meeting in July and completed its work by 
our September 1 deadline. I am extremely pleased that this ARC 
acted quickly and reached consensus on a broad philosophical 
framework for addressing this critical subject. Our experts are 
now reviewing the ARC's recommendations, and we have an 
aggressive timeline for completing the NPRM and we are on 
track.
    Recognizing the urgency of proposals in the call to action, 
we also directed our inspectors to do a focused review of air 
carrier crew member training, qualification, and management 
oversight. This two-part program met its first deadline on July 
15 and is on track to meet the final deadline set for the end 
of September.
    We are also moving forward aggressively with our proposed 
changes to the airline safety and pilot training NPRM. We have 
received over 3,000 pages of comments to this proposed rule, 
and we are reviewing those carefully and anticipate that we 
will continue to meet our deadlines on this project. And 
although the FAA's leadership and guidance is critical to 
safety, the most effective safety culture is not one that is 
merely imposed by orders and notices from Washington. No, it is 
one that encourages buy-in and participation from the entire 
aviation community.
    And so we took our show on the road, if you would, holding 
12 regional forums across the country during the months of July 
and August. And these forums allowed the FAA to discuss the 
Call to Action and all the initiatives associated with it. The 
opportunity was there for us to receive stakeholders' feedback, 
to engage with aviation professionals, and to seek new ideas to 
improve industry safety, all of these being equally important.
    In addition to hard work, we have also applied a dose of 
common sense to this Call to Action. As we work through our 
plan we realize that some of our deadlines might actually 
shortchange our results. Our original intent was to develop 
guidance materials for conducting comprehensive training 
reviews by July 31. But we realized that this deadline actually 
predated the completion of our focused inspection initiative 
and the conclusion of our regional safety forums. With that in 
mind, we realized that we ought to take those two sources of 
information into account before putting forth any 
recommendations, and also recognizing that our commitment to 
safety can only be served by prioritizing quality results over 
a rigid timeline.
    So with that in mind, I extended the July 31 deadline to 
December 31. This will give our team time to analyze and 
incorporate the valuable input that we received and continue to 
receive from the aviation community.
    While I am pleased to discuss the important steps that we 
have taken and will be taking, I believe we should also 
acknowledge the biggest factor affecting aviation safety, 
professionalism in the workplace. No amount of safety 
procedures, rules or task forces can replace the central role 
that individual professionalism plays in keeping the skies 
safe. And whether one has a wrench in his hand or her hand or 
sits at a yoke or carries a clipboard or wears a headset or 
works in the galley, doesn't make any difference. Safety is 
everyone's responsibility. And although professionalism 
prevails in the majority of the work force and throughout the 
industry, the standards are the same, the training is the same, 
but unfortunately, the mentality is not the same. And this is 
what we need to change.
    We must develop a culture where the hand of experience 
guides and mentors the inexperienced members of our community. 
We must find a way to nurture a culture where individuals know 
they can speak up about weaknesses in system without 
punishment. We must create a culture where professionalism and 
individual accountability it demands is both a job requirement 
and a point of pride. Despite the work that remains to be done, 
we know that safety is a shared priority throughout the 
aviation community and because this is true, we are confident 
that our efforts will succeed.
    Mr. Chairman, Congressman Petri, this concludes my remarks. 
I will be happy to answer any questions should we have the 
time.
    Mr. Costello. The Chair thanks you, Administrator Babbitt. 
And let me say that I am pleased to hear that you are going to 
identify the airlines and anyone who did not respond to your 
letter, that you will publicly address that and make not only 
the Congress but the American people aware of who did not 
respond. Thank you.
    The Chair now recognizes Mr. Loftus.
    Mr. Loftus. Chairman Costello, Ranking Member Petri, and 
Subcommittee Members, I would like to thank you for inviting me 
to speak today before your Committee. I am here today 
representing not only my immediate family, but also my new 
family, the families of Continental Flight 3407. My 24-year-old 
daughter, Madeline, was on board 3407 that wintry night outside 
of Buffalo. She, along with 49 others, and an unborn baby, 
perished that night in February.
    This past August 28, my family, gathered at my daughter's 
grave in the pouring rain to sing happy birthday. Not quite the 
celebration I would wish on anybody. Since that tragic night in 
February, birthdays, anniversaries, graduations, family events, 
simple everyday life seems as though they have lost their 
luster. Nothing for us will ever be the same. The only thing we 
are left with is the past, the memories.
    More than any other issue we can spotlight or debate at 
this hearing, I feel the most importance mission for me to 
accomplish today is to keep the oh so painful human side of 
this accident fresh in the minds of the important people, both 
in our government and the aviation industry. I have included at 
the end of my testimony 23 impact statements that have been 
submitted by family members of our group letting you know the 
pain and sadness that we still struggle with on a daily basis 
over 7 months later.
    I would like to share one from Nirmal Sidhu, who lost her 
son, Dipinder, that fateful night. She writes, how can I ever 
forget those Sundays when Dipinder would ask me to stay in bed 
as he would whip up a scrumptious breakfast and serve it with 
aplomb, or the special way he would pick up our 10-year-old 
shiatsu and cuddle him every day upon entering the house after 
work, or the sound of the Wheel of Fortune playing religiously 
on the TV in the evening. I can still here the relentless 
teasing of my niece, Simmar, by my son, who treated her like a 
younger sister. He was instrumental in getting her admission 
into India into medical school after her graduation. How we 
missed sharing the joy just a week back when Simmar passed the 
first year of medical school in a new environment with a 
different educational system with flying colors. I can still 
feel the exuberance in his voice when he talked about the girl 
in whom he felt that he had found a true soul mate. I can still 
see him joking and laughing with his father on most evenings. I 
can visualize his smile when he talked with pride about his 
sister, Natasha. It is all gone forever. If I only knew that I 
would never see, hear or feel all of this, if I just knew that 
he was just given to me for only 28 years, I would never have 
let him out of my sight for a second. How I wish I could hear 
him just one more time so that I could say one more time to 
him, I love you. We are all here with one goal in mind and that 
is to prevent a tragedy like Continental 3407 from ever 
happening again. The simple question we and everyone else must 
ask is what measures will make this a reality.
    And that brings me to the FAA's call to action plan 
unveiled in June. In response to the findings revealed by the 
NTSB hearings in May, I want to acknowledge Administrator 
Babbitt and his staff who have met with the group on multiple 
occasions keeping us informed of ongoing development and, most 
importantly, not waiting till the NTSB's final report to move 
forward on a quest to make critical improvements to our 
aviation system.
    We have a simple message for the FAA. As a former pilot, 
when I look at the initiatives detailed in the call to action, 
they address three critical areas, training, fatigue, and an 
increased emphasis in investment in safety at the regional 
airline level. Clearly, our accident revealed deficiency in 
both stall recovery and cold weather training in the industry.
    Since 2004 the FAA has been working on a rule making geared 
towards improving the airlines crew training program. The 
comment period on this proposed rule making closed last month. 
As we reviewed the submissions to the FAA we came across quite 
a few negative comments from the industry. For me, they echoed 
the all too familiar complaints of the changes being too great 
of an economic burden and a complacent attitude of what we are 
currently doing is sufficient. That mindset is exactly what got 
us into this predicament that we find ourselves in today.
    At the same time, the FAA is moving forward on rule making 
that would lead to a revised flight and duty regulations which 
former pilots like myself and Administrator Babbitt can testify 
are long overdue. This would be an enormous stride toward 
making airline travel safe.
    One area that our group would like to see kept in the 
spotlight is the problematic area of commuting. With pilots 
flying cross country to report for duty, we cannot continue to 
look the other way and pretend that we do not have issues 
associated with commuting not to be addressed. So, in terms of 
eliminating deficiencies related to training and fatigue, our 
group challenges Administrator Babbitt and the FAA to stand up 
to the industry, to stick up for our loved ones and the flying 
public, and see these new regulations through enactment in the 
course of the next year.
    Next, I want to touch on the FAA effort to identify 
industry wide best practices and secure voluntary commitments 
to all part 121 carriers to implement them. What it really 
speaks to is the inconsistencies of how regional carriers 
approach training, safety in all phases of their operation. 
When I flew, when it came to best practices in terms of safety 
and training, what was good enough for Continental was good 
enough for Continental Express. Sadly, our accident revealed 
that this is no longer the case. Instead we watched as 
Continental does everything to lay the blame for the 
shortcomings at Colgan and at the feet of the FAA for its lack 
of oversight. Instead of looking to shift the blame, we feel 
that everyone needs to come together to accept responsibility, 
from the regional carriers to the major carriers to the pilots 
union to the FAA and Congress, to figure out what went wrong 
and work together to fix it. If parent carriers take 
responsibility for the regional partners, will allow for safer 
operations, then that is what should happen.
    So for the regional airlines it all comes down to investing 
in safety and in your pilots and doing everything you can to 
set them up for success. There should be no corner cutting when 
it comes to providing the very best training and the most state 
of the art safety management tools. Yet, as we look at the 
operations of Colgan this is exactly what was allowed to 
happen. The FAA has gotten the ball rolling in many of these 
areas with recent summit and regional safety forums, but I know 
too well from my time in the industry that voluntary 
commitments to best practices now can certainly go away quickly 
in the future if the economics change or if Administrator 
Babbitt is not at the helm of the FAA to keep the industry 
honest.
    And so this is where we need you, our representatives in 
Congress, to come in and mandate some of these changes. There 
are numerous important initiatives that have been put forth by 
both the House and the Senate for consideration with the FAA 
reauthorization. But I would like to spotlight three that we 
consider must haves.
    First, we must move forward with the comprehensive pilot 
training record database for use in the hiring process. Let us 
never have another accident where the carrier has the excuse 
that they did not know everything there was to know about the 
pilot when they hired him or her.
    Secondly, we need to lock in mandatory safety management 
programs, FOQA, ASAP, LOSA, with privacy protections that the 
pilots are asking for. We cannot leave the regional carriers 
with any temptations to save money at the expense of safety, 
which we glaringly saw in the case of Colgan. And lastly, we 
need to achieve one of the key provisions put forth in the 
Subcommittee's recent introduced legislation; namely, that all 
commercial pilots must have an ATP rating, with the requirement 
of 1,500 hours prior to being hired to fly commercially. The 
demographics of the pilot work force has changed, moving 
towards a younger, more inexperienced pilot while the 
technology has gotten more advanced. When I was hired by 
Continental Express I had an ATP and 5,000 hours flight time, 
and the captains with whom I flew with had twice as much time 
as me. As I said in my previous testimony before this 
Committee, there is no substitute for experience in the air. As 
a veteran of the industry, I know that this provision will 
require entry level pilots to build up additional hours by 
flight instructing, cargo hauling and crop dusting before they 
can be hired commercially. Many years ago that is exactly the 
route I took, and all those experiences made me a better pilot 
when I got to Continental Express and had human lives in my 
hand.
    So we ask the regional and major carriers, the pilot 
unions, and flight training schools to support this initiative. 
It means a lot to our group.
    In conclusion, I would like all the key players in this 
room to look at the families here with me today, the Mellets, 
the Eckerts, the Maurers, the Kausners, the Tolsmas and the 
Pettys, and all the other families who were not able to come to 
Washington but are here with us anyway. For us, what matters is 
not a well crafted public relation strategy while our accident 
is still fresh in the spotlight, what matters to us is 
implementation and follow-through. When it comes to the FAA 
reauthorization, the call to action, and the NTSB final report 
and safety recommendations, we ask that you do everything you 
can to make sure the tragic mistakes of Continetal Flight 3407 
are never repeated again.
    Thank you.
    Mr. Costello. The Chair thanks you, Mr. Loftus, and now 
recognizes Captain Prater.
    Mr. Prater. Thank you and good morning, Mr. Chairman, 
Ranking Member Petri, and Members of the Committee. Captain 
Loftus, Captain Babbitt, and you have our commitment to work to 
prevent another Continental 3407.
    You may recall that ALPA testified before this Committee on 
June 11. At that time we described the economic reality that 
has set the stage for many of the safety issues we are 
discussing here today. Code share and fee for departure 
agreements mean that main line carriers exert enormous pressure 
on regional airlines to provide their flight operations as 
cheaply as possible.
    What do many airlines do to win this race to the bottom? 
They replace experienced pilots with low experienced pilots who 
fly for low paying operators marketed under the main line 
brand. They consider short staffing to be standard practice, 
and pilot pushing it is the result. Fewer pilots flying for 
days compromises safety. With the industry's intense focus on 
the lowest possible operating cost and the practice of airlines 
outsourcing their routes to the lowest bidder, I would like to 
review our observations following the FAA's 12 call to action 
meetings.
    I led a dozen ALPA representatives to the FAA's industry 
summit on June 15, and served as the pilot moderator at the 
first call to action, and participated in the event in St. 
Louis. ALPA provided pilot moderators at six of the meetings, 
and nearly 70 of our pilots participated in those 12 events. I 
would like to offer examples of ALPA's actions that illustrate 
our union's commitment to assist the industry and the FAA in 
recognizing the serious safety issues raised during the call to 
action.
    ALPA's code of ethics, adopted in 1956, provides standards 
of conduct for airline pilots. I have directed the leaders of 
our 36 pilot groups to work with their managements to do even 
more to incorporate our code of ethics into initial and 
recurrent pilot training.
    Nearly all ALPA represented pilot groups have professional 
standards committees charged with maintaining the highest 
degree of professional conduct. Where management supports them, 
professional standards committees enhance safety. 
Unfortunately, we continue to see managements that refuse to 
allow their pilots to participate in ALPA professional 
standards and safety efforts.
    Today, ALPA is releasing a new white paper on pilot 
candidate screening, hiring, training, and mentoring. We have 
asked our 50,000 members to participate in building those 
standards.
    Our union has also created a professional development 
committee to enhance our work with the aviation community, the 
colleges, the universities to foster professionalism in new 
pilots.
    On a related issue, nearly all of ALPA airlines have an 
ASAP program, and about half have a FOQA program. ALPA has 
worked to help airlines establish these critical initiatives to 
detect and resolve safety issues before accidents occur. Sadly, 
we continue to encounter managements and sometimes even FAA 
inspectors who remain convinced that the way to deal with 
safety issues is to punish employees for their mistakes. I have 
said it before, I will say it again. ASAP and FOQA programs 
will fail if they are used as discipline measures rather than 
as intended to advance safety.
    Based on our extensive participation in the call to action 
meetings, we believe that they identified some of the best and 
certainly some of the worst practices in our industry. But what 
has yet changed? The action we believe to be absolutely 
essential from the regulated parties and the agency was 
noticeably absent. Clearly, the voluntary programs that are 
working need to be supported. Many of the best practices must 
be mandated and the worst practices must be eliminated through 
regulatory or legislative action.
    For just one example, look to recent news headlines 
exposing onerous sick leave and fatigue policies at some of our 
regional airlines. Despite the hearings earlier this year 
substantiating this egregious behavior, our members continue to 
present evidence that some of these companies haven't changed. 
They continue to punish pilots who call in too sick or too 
fatigued to fly. In fact, approximately one-third of the pilots 
at one airline are reprimanded for sick leave or fatigue 
related absences annually.
    This shocking number illustrates the flaws in the staffing 
and scheduling practices at too many airlines and demonstrates 
the urgent need to update the archaic flight and duty time 
regulations that continue to allow these unsafe practices to 
exist.
    Main line management often refuses to intervene, despite 
the fact that these other airlines carry their passengers, the 
managements at the name brand airlines that sell the tickets to 
the traveling public and should be held responsible refuse to 
intervene, saying that these vendor airlines meet FAA 
standards.
    As part of my commitment to the Administrator's call to 
action, I am reaching out to every CEO of main line and 
regional airlines where we represent the pilots to ask if each 
will work with ALPA to address the safety issues raised by the 
call to action. Safety requires the investment of both time and 
money. The race to the bottom fails to deliver the safest 
possible service across an entire airline network.
    We urge Congress to act swiftly to pass this Committee's 
bill, H.R. 3371, into law. Thank you.
    Mr. Costello. The Chair thanks you, Captain Prater, and now 
recognizes Mr. Cohen.
    Mr. Cohen. Chairman Costello, Ranking Member Petri, and 
Members of the Subcommittee, our thoughts and prayers continue 
for the families of Continental 3407 as we focus all of our 
efforts to doing everything possible to make sure that an 
accident like that never happens again.
    Regional airlines have become vital to the Nation. We fly 
more than 50 percent of the scheduled passenger flights and 75 
percent of the Nation's communities are served exclusively by 
regional airlines. But most importantly, regional airlines are 
committed to safety. I am proud to announce today that 
virtually all of RAA's members, airlines that transport 98 
percent of the passengers carried by our member airlines, 
either have established or have committed to establishing in 
the near term a FOQA, Flight Operations Quality Assurance 
Program. For ASAP the results are similar. Virtually all of our 
members have implemented this valuable safety tool for their 
pilots, some of them having done so up to a decade ago.
    In June, we responded immediately to the FAA call to 
action. And for the record, all the RAA member airlines 
responded in writing to the Administrator's June 24 letter. On 
short notice, seven RAA member airlines were invited to attend 
that first meeting. Every one sent its senior executives, 
including six CEOs, demonstrating what Chairman Oberstar has 
commented, that safety begins in the boardroom. That meeting 
featured a candid discussion of critical issues leading to a 
safety agenda that included a dozen similar town hall meetings 
across the U.S. Each of those meetings was cochaired by a 
regional airline executive.
    RAA also played a key role in the 9-week flight duty and 
rest ARC. And let me state, the members of the Regional Airline 
Association are committed to this rulemaking, to adopting the 
new science-based regulations that arise from the process, and 
doing so in a prompt and timely manner.
    In addition to being participants actively in the FAA 
efforts, RAA has embarked on our own strategic safety 
initiative that aligns with the FAA's efforts and the goals of 
this Committee. Our initiative includes, number one, forming a 
task force comprised of regional airline safety directors and 
operations officials to review all of the procedures and NTSB 
recommendations that could help prevent accidents.
    Number two, we will be working with the Washington State 
University Sleep and Performance Research Center. We will study 
the fatigue risks associated with regional airline pilot 
operations.
    Third, we will be working with the Flight Safety Foundation 
and will study the feasibility and practicality of developing 
an industry fatigue risk management system. And these elements, 
the following elements I am going to may require some 
legislative or regulatory action, and we look forward to 
working Congress and the FAA to identify these needed safety 
tools.
    These include establishing a single database of pilot 
records, extending the background check time frame to 10 years; 
third, improving the tracking and analysis of check runs; 
fourth, exploring the use of random fatigue tests for pilots; 
and fifth, considering the use of cockpit voice recorders for 
accident prevention.
    Please let me also address commuting. The ARC did not deal 
with commuting, so we do not expect the rulemaking to address 
it. But commuting must be conducted in a responsible manner. 
Each of our member carriers has a nonpunitive policy in place 
and reserve crews on call to allow a pilot to drop a trip if 
that pilot feels incapable of flying alertly.
    Mr. Chairman, safety is a never ending effort and one that 
necessitates collaboration and cooperation among all 
stakeholders, the airlines, our employees, and the government. 
We in regional aviation are committed to ensuring that the U.S. 
air transportation system remains the safest mode of travel.
    Chairman, I thank you for the opportunity, and we welcome 
any questions you might have.
    Mr. Costello. The Chair thanks you, Mr. Cohen, and now 
recognizes Mr. May.
    Mr. May. Thank you, Mr. Chairman, Ranking Member Petri. 
While it is no consolation to the families devastated by the 
Colgan Air tragedy, our members are taking action to make our 
aviation system, which is already the safest in the world, even 
safer. Before I discuss some of those initiatives, I would like 
to emphasize three points in particular.
    First, I think we all need to accept that until the NTSB 
concludes its investigation of the Buffalo accident we are not 
going to have a complete understanding of that accident.
    Second, safety improvements today result from careful 
collaborative evaluation of operational data and practices. 
Safe aviation has an empirical disciplined approach to safety.
    Third, the bedrock principle in civil aviation is that the 
entity to which the FAA has issued a certificate is ultimately 
responsible and solely responsible for its activities. Whether 
that entity is an air carrier, an airman or a dispatcher, that 
responsibility can't be delegated or assumed by others.
    That principle avoids confusion about who is ultimately 
responsible, an absolutely essential consideration in promoting 
one level of safety. One level of safety, one level of 
enforcement. While this principle of individual accountability 
is critical, improving safety is a shared commitment.
    We work closely with other aviation community members, 
including our regional partners in this never ending collective 
effort. For that reason, we welcome the FAA's June 15 call to 
action meeting. And at that meeting the FAA worked with our 
carriers and regional carriers and pilots to develop common 
strategies for reducing risks. We also welcome the opportunity 
to join with regional airlines, labor representatives, and the 
FAA in a series of 12 regional forums around the country to 
communicate the results of that call to action meeting.
    With the indispensable leadership of Administrator Babbitt, 
several important initiatives have already been undertaken. 
They include creation of an aviation rulemaking committee to 
develop recommendations to revise flight and duty time 
regulations for flight crew members. Our industry 
representatives were very active main participants in that 
process. These recommendations, I think, are importantly 
science-based to accommodate various operating models, align 
with international guidelines, and reflect the vast and varied 
operating experience of U.S. carriers.
    Number two, our commitment to adopting what labor and 
management have identified as most effective practices for 
improved safety. Those commitments were reflected in the air 
carrier letters to the administration. And like my partner from 
the regional airlines, I can assure you that every single ATA 
carrier has, in fact, replied in depth to administrator. And we 
covered the following topics: Asking pilots to voluntarily 
disclose their FAA records, including adverse actions. If not 
already using flight operations quality assurance, FOQA, and 
Aviation Safety Action Programs, ASAP programs, to establish 
them. I want to underscore that all of our ATA members already 
have those programs, have had them in place for many, many 
years, along with a number of other safety related and training 
programs like AQP; holding periodic meetings between main line 
carriers and their regional codes share airlines to review 
safety programs, share safety information and share most 
effective practices.
    Number three, FAA's focused training inspection initiative 
in which the FAA is reviewing flight crew member training 
programs. As we all know, our union partners are crucial to any 
effort to improve safety. Labor organizations have committed to 
several initiatives focused on ensuring professional behavior 
and further strengthening voluntary safety programs such as 
ASAP and FOQA. I certainly agree with Captain Prater, they 
can't be used in a punitive way. Equally important, the 
industry recognizes the importance of mentoring, transferring 
experience from seasoned flight crew members to those with less 
experience.
    We also believe that the Inspector General's review of FAA 
safety oversight of regional airlines is going to provide 
significant insights. The IG is focusing on three essential 
issues, pilot certification, training and qualifications, as 
well as commuting and compensation issues.
    And finally, I want to reiterate the creation of a central 
pilot database would significantly improve airlines ability to 
vet pilot applicants.
    In closing, we commit to continue to work diligently with 
other stakeholders and to follow through with the various 
commitments during the FAA call to action. We also look forward 
to evaluating and responding to the results of the NTSB 
investigation and to the IG's assessment of FAA regulatory 
oversight. Those actions are already taken. Those are underway, 
and those yet defined are and must continue to be driven by 
expert analysis of facts and data. It is in this informed 
context that further action to improve safety should be 
examined.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks you, Mr. May, and now 
recognizes Dr. Brady.
    Mr. Brady. Chairman Costello, Members of the House Aviation 
Subcommittee, thank you for allowing the aviation educators of 
the Aviation Accreditation Board International and the 
University Aviation Association the opportunity to be heard. If 
I were to place a caption on this testimony I would title it, 
quality, not quantity. This I hope will become clear as my 
testimony progresses.
    The combined institutional membership of both AABI and the 
UAA is 115 colleges and universities who represent almost 
11,000 students involved in academic preparation to become 
professional pilots and to create a significant percentage of 
the professional pilot work force. A single member institution 
alone provides one in four of the professional pilots flying 
air carrier aircraft today in the United States. One in four. 
These numbers are not insignificant.
    We applaud the Committee, the Subcommittee for focusing on 
the safety of the airline industry. We, the aviation educators, 
have studied H.R. 3371 and find that most of its provisions are 
sound and will likely achieve the objective of improving air 
safety. There is one requirement, however, that causes us deep 
concerns. I am referring to the Airline Transport Pilot, ATP-
only provision described in section 10 requiring a pilot to 
achieve an ATP before being allowed to enter the cockpit of a 
part 121 air carrier. For a pilot to acquire the ATP, he or she 
must be at least 23 years of age and have flown at least 1,500 
hours. Graduates from colleges and university programs 
typically have earned the private commercial instrument multi-
engine and perhaps a certified flight instructor 
qualifications, have about 250 to 350 hours of flying time, and 
may not yet be 23 years of age. This bill would require these 
graduates to spend an unnecessary number of years building 
their flight time so as to qualify for an entry level first 
officer position. The ATP requirement is a quantity driven 
requirement that requires little improvement in skills. 
Quantity, not quality.
    So what do we know about quality? A 2008 pilot yield study 
examined the performance of all 452 new hire first officers for 
a large regional airline who started air carrier training 
during 2006 and 2007. The results were eye opening. The first 
officer new hires that performed best were those who had 500 
hours of flight time or less and were graduates from AABI 
accredited institutions. Committee Members, that is quality. We 
have identified it and we know what it is.
    Further, I submit that there is a direct relationship 
between quality and safety. The higher the quality of the 
entering pilot work force the higher the level of safety. But 
the ATP-only provision in this bill would close the cockpit 
doors to these high quality entry level first officers. So we 
are asking you today to remove this provision from the bill or 
to modify it so that graduates of high quality programs that 
meet AABI outcomes are able to enter the cockpit as entry level 
first officers at a much lower flight time requirement than the 
ATP requirement of 1,500 hours.
    What are the results if you allow the ATP only provision to 
remain unchanged in the bill? The quantity driven ATP 
requirement would cause potential students who would normally 
enter a high quality university program to now seek the 
shortest route to the first officer's seat. Why would they 
spend 4 years at a college or a university paying tuition and 
flight fees, when at graduation they still need to fly for 
another 2 years to be qualified to enter the air carrier as a 
first officer trainee? They probably wouldn't. They would seek 
out local flight training providers, acquire the necessary 
ratings and spend the next year or two flying cheap, 30-year 
old single engine airplanes to build their flight time. They 
would repeat the same flying hour 1,000 times over and add 
little value to the scant knowledge they gained from the 
earlier training. At the end of it, the pilot would take the 
ATP written and flight exams and be eligible to enter the air 
carrier training program. These are the types of pilots who 
scored the worst on the pilot yield study. On the other hand, 
graduates from AABI university programs who enter the air 
carrier cockpit as first officers at say 500 hours, total time, 
and spend the next 1,000 hours being mentored by a seasoned 
captain flying the line are learning more each day. At the 
1,500 hour point these first officers are superbly prepared air 
carrier professionals and are far superior to those who simply 
built flight time by flying nonproductive hours just to get to 
the magic number.
    This ATP-only provision will fill the cockpits of air 
carriers with poor quality first officers and decimate the 
robust high quality flight education programs found at 
universities all across the country. For example, the aviation 
degree program at St. Cloud State University in Minnesota would 
cease to exist, just as the program at Southern Illinois 
University in Carbondale would. Half the students at Embry-
Riddle at its campuses in Florida and Arizona would disappear. 
Auburn's program would close, as would the one at Kent State in 
Ohio, the program at Central Texas College also. The excellent 
program at Middle Tennessee State University would go away, and 
so would those at Western Michigan University and Eastern 
Kentucky University.
    These are just a few examples. In total, the programs at 
colleges and universities across this great country which now 
enroll 11,000 students in flight education programs would close 
or would suffer. We aviation educators know this. We are the 
ones closest to the future of aviation education in this 
country, and we are sounding the alarm. Please don't kill the 
source of the highest qualified entry level first officer 
pilots entering the air carrier work force. To do so by 
retaining the ATP-only provision in this bill will diminish the 
safety of the entire system, cripple aviation higher education, 
and achieve the exact opposite of the intended outcomes of this 
bill.
    Thank you, Chairman Costello and Committee Members, and I 
am prepared to answer any questions you might have.
    Mr. Costello. The Chair thanks you, Dr. Brady, and now 
recognizes Mr. Skiles.
    Mr. Skiles. Thank you. I would like to thank Chairman 
Costello, Ranking Member Petri, and the Members of the House 
Aviation Subcommittee for accepting my testimony here today.
    First, let me acknowledge the tremendous loss suffered by 
the families of the Continental Connection Flight 3407. I 
cannot begin to imagine the pain and loss suffered by the 
victims' families, and I know that my fellow pilots will keep 
them in their thoughts.
    It is good to reflect on the reasons why we are all here 
today. On February 12 of this year, Continental Connection 
Flight 3407 crashed into a Buffalo, New York neighborhood, 
causing the terrible loss of all onboard. In the aftermath the 
spotlight has been placed on pilot experience, pilot fatigue, 
and industry compensation levels. It is apparent from the 
available information at the NTSB hearing that the actions of 
the Continental connection pilots during the performance of 
their normal duty led to this tragedy.
    But I would submit that they were as much victims of the 
state of the Nation's airline industry as the passengers who 
entrusted their lives to Continental Airlines. They were simply 
asked to fly a sophisticated aircraft in challenging conditions 
for which their limited experience had not prepared them for.
    Over the past several years, there has been a dramatic drop 
in the experience levels of new hire pilots in our Nation's 
cockpits as our airlines sacrifice experience for the bottom 
line. The first officer of Continental Connection Flight 3407 
drew an annual salary of $16,200 a year. In an effort to 
attract pilots at poverty level wages, minimum hiring 
qualifications have dropped to the lowest bar possible. Many of 
our Nation's experienced pilots are now unwilling to accept 
employment for such wages and regional airlines need to fill 
their cockpit seats with lesser qualified pilots.
    The Airline Safety and Pilot Training Improvement Act of 
2009 calls for all airline transport pilots to possess an 
airline transport pilot's license. The ATP would increase the 
experience base of U.S. commercial pilots as it would require 
flight experience commensurate with the responsibilities of the 
position. Today every major airline recognizes the value of 
experience by requiring, at a minimum, 1,500 to 3,000 hours of 
flight experience. Yet, in a few short years, regional 
airlines, who now fly over 50 percent of our domestic flights, 
have lowered their requirements to the absolute minimum in an 
effort to fill their cockpit seats at the lowest possible cost. 
The experience level of the Continental connection pilots is an 
example of this negative trend.
    Experience matters. The flight hours that the FAA requires 
to qualify for an airline transport pilot's license allows the 
pilot the opportunity to develop judgment and critical decision 
making skills that simply aren't possible in a tightly 
controlled training environment. Airmanship skills are only 
developed from exposure to challenging conditions and honed 
over time. Architect, engineers, CPAs and even real estate 
brokers are all examples of careers that have experienced level 
requirements before attaining full recognition or licensing. 
The responsibilities of an airplane pilot should demand no 
less.
    My testimony would not be complete without addressing pilot 
fatigue. This is an issue that has long been a contributing 
factor in aviation accidents, and the NTSB has recommended 
changes in flight duty time rules for 2 decades.
    This summer, Administrator Babbitt called for an aviation 
rulemaking committee to discuss changes in current regulations. 
While Administrator Babbitt has promised changes in regulation, 
the current discussion at the ARC is trending towards 
increasing the number of hours a pilot can fly in a duty 
period. We need prompt action to lower, not increase the amount 
of time a pilot can fly and a reduction to the 16-hour workday 
currently permitted by FAA regulations. We don't fix the pilot 
fatigue problem by allowing airlines to schedule more flight 
hours in a day, nor do we fix the pilot experience program by 
allowing any inexperienced pilots in our Nation's cockpits.
    While Administrator Babbitt has shown a willingness to 
attack these problems, history shows that the FAA has never 
been an agent for change. We fully endorse H.R. 3371. It is a 
positive first step that puts in place a timeline for solutions 
and enhances the pilot experience level in our Nation's 
transport category aircraft.
    Pilot leaders of ALPA, CAPA, and the IBT, representing 
90,000 front line pilots, came before this Subcommittee in July 
as a united front in support of the airline transport pilot's 
license as the minimum standard in the cockpits of our Nation's 
airliners. Administrator Babbitt was instrumental in improving 
safety 20 years ago when he advocated that all scheduled 
transport be conducted under FAR part 121 regulations. He did 
this to create, in his words, one level of safety. We ask him 
to continue advocating for one level of safety by supporting 
the initiatives of H.R. 3371.
    Thank you, sir.
    Mr. Costello. The Chair thanks you, Mr. Skiles.
    Captain Prater, as you know from roundtable discussions 
with many of the people on the--witnesses on the panel, our 
goal in H.R. 3371 was to--one of the goals was to raise the 
minimum standards so that you would have the first officer and 
the captain at the same minimum level of experience and 
training, and that, of course, would require an ATP license. 
But in addition to the ATP license requiring 1500 hours in the 
cockpit, there is also aeronautical knowledge, crew research, 
management training, a lot of other training that goes along 
with it.
    I would ask you, Dr. Brady has raised an interesting 
question and feels that both the 4-year institutions that are 
accredited--there are 26 I understand. I have two in my 
congressional district in southern Illinois, University in 
Carbondale, and St. Louis at Parks Airport, and of course, Dr. 
Brady, who offers his testimony today.
    Do you believe that these institutions are at a 
disadvantage if in fact we require that the first officer 
receive an ATP license as opposed to just a commercial pilot's 
license.
    Mr. Prater. I do not believe that they will be 
disadvantaged. In fact, I agree with them that they are 
producing very good pilots who can go out and become airline 
pilots, but the problem is the airlines have become the 
introductory spot. It used to be the final spot for an aviator, 
you went out and you earned your time before you became an 
airline; now it is a transitionary job. You go to work for an 
airline and fly the public around so that you can get a good 
job with a corporation, or you can get a good job with one of 
the freight operators that pay.
    Think about that. We are taking young aviators who have got 
a good education, some have gone through the university 
program, their first job as a commercial pilot is hauling 50, 
70, 90 passengers; that is what is unacceptable. So we support 
the foundations of the airline transport pilot to be hired.
    Now the bill that we have seen and looked at and support 
allows for some breathing room in here. We certainly have a 
time for the breathing room. We can work with the FAA's and the 
schools to find a way to ensure that that level is brought up.
    But I agree with all the pilots at this table, that you 
cannot replace time in the air. That is what earns you 
experience. Experience is learning what you don't know, 
recognizing what you don't know. We can't take these young 
pilots with just 250 hours and turn them into airline pilots 
unless the airlines are willing to give the amount of training 
that say the military gives. Look at the vast difference. The 
military gives about a year of intense training. The airlines 
give currently 6 weeks of training to take that 250 or 300-hour 
pilot to become an airline pilot you had better be prepared to 
dedicate more resources to training. Thank you.
    Mr. Costello. Dr. Brady, would you like to respond.
    Mr. Brady. I would disagree that all of the pilots seated 
here agree with that statement he just made. I happen to be a 
pilot myself with the ATP, so I certainly don't agree with 
that.
    I think in terms of who is entering the cockpit, as I 
mentioned, it is the quality issue that is important that we 
certainly think there are flight training providers throughout 
who are turning out pilots of lesser quality, but the quality 
of the pilots being turned out by the university is 
significantly higher than anything else in the country. And I 
would add that the statement made a moment ago was that the 
military provides excellent training for air carrier pilots, 
which is true. But in the pilot yield study, the military 
pilots who had come from the military and into the regional 
carrier were, although they scored very well in terms of being 
able to accommodate training for the air carrier, they didn't 
score as well as a 500-hour pilots coming out of college and 
universities.
    So I think there needs to be some measure of quality of the 
product coming into the air carriers and not just say some 
magic number that is going to bless everyone and paint them 
with the same brush. The quality of training is not the same 
throughout the system.
    Mr. Costello. Mr. Skiles, would you like to comment?
    Mr. Skiles. Yes, I would. I did see what was submitted from 
the AABI, and I would like to comment, first of all, that is 
not an independent appraisal; it was done by Embry-Riddle 
University. Secondly, it is not a complete transcript of the 
study; they were carefully culled conclusions to support their 
positions. The leap in logic they came to illustrate that the 
ATP pilots require extra training is particularly disturbing, 
but let me tell you.
    I have 33 years of experience, 20,500 flying hours and ATP 
three type ratings and I have been through many, many initial 
and recent training events, and I have never failed a check 
ride and I have never required even one period of additional 
training.
    When the airlines used to hire qualified pilots that was 
the norm. According to its own study, some 30 percent of AABI 
graduates require extra training events right out of the box, 
right out of school at their first initial--at their new 
airline, and they are bragging about that fact in the study.
    The AOPA Nall report identifies some issues relevant to the 
continental connection crash. The Nall report stated that 
commercial pilots are three times more likely to be in an 
accident than a pilot that is possessing an ATP. That is three 
times the accident rate. I think the American people demand 
more. Thank you.
    Mr. Costello. Administrator Babbitt, would you want to 
comment?
    Mr. Babbitt. Yes, sir. Thank you. I would only make the 
observation, I may well have begun to accelerate this debate if 
the Subcommittee and the members of the panel will recall, 
before there was ever a move to suggest we should have this 
rating. We were already proceeding with preparations for an 
Advanced Notice of Proposed Rulemaking that acknowledged the 
fact that we felt within the FAA that there was a need for 
additional training and an additional rating, if you would, and 
had suggested that that would be rating would be required to 
become a first officer.
    So the distinction would be that if a commercial pilot 
wanted to go to work for an airline, you would have to have an 
additional skills and additional training that would be 
applicable to the mission. And one of the things that I point 
out to people, and I agree with Dr. Brady in one sense, the 
actual accumulation of more flight time, while it is 
experience, we don't know what kind of experience it is.
    I was hired with a pilot that had 7000 hours, but he was a 
SAC (Strategic Air Command) pilot, and he flew 12-hour legs 
with four pilots, which meant every 40 hours he got one 
landing. That was not the kind of experience you want in a high 
traffic area with high exposure to approaches. I would point 
out that the two Air Florida pilots in a terrible tragedy that 
happened right here in Washington, were military-trained. Both 
of them had thousands of hours, but the first officer had never 
seen an airplane deiced before.
    So I am suggesting to you that perhaps we should 
consolidate some of our thinking here and make certain that we 
don't just accept that quality is thrown out or quantity is the 
only answer. I think a meld of the two, which is what we expect 
to propose in our Advanced Notice of Proposed Rulemaking might 
be a better solution. So those are my observations.
    Mr. Costello. Mr. Loftus.
    Mr. Loftus. Again, I'll state it one more time there is no 
substitute for experience in the air. However, I agree that I 
have flown with many entry-level pilots and university educated 
pilots and they turn out to be very good pilots eventually, but 
the airlines are not entry level position. I go back and say 
that again, they need to earn their way up to it. It is not an 
entry level. They shouldn't be flying people in the back as 
their first job.
    Mr. Costello. Administrator Babbitt, you heard Mr. Cohen's 
testimony that all of his member airlines have responded to 
your letter. Is that a correct statement?
    Mr. Babbitt. I can't--I won't fault him. I want to be 
straightforward here and be candid. I think in the request that 
we made to the carriers, and I'll take some responsibility for 
this, we weren't crystal clear as to the vehicle as to how to 
respond, and I am of the belief that several people attempted 
to respond to us to different locations, some by U.S. mail and 
so forth. I am comfortable that we had a much larger 
percentage. I have some numbers here. They are a lot closer to 
what Mr. Cohen's suggested than what we originally gave you a 
few weeks ago.
    We have gone back, we have checked with the airlines; we 
have reached out to the unions and asked that if they did send 
something please resend it to us. We should have updated 
numbers for you. But I think the responses have been very 
positive. I think we'll take some of the blame for not being 
clear as to where and how they should have responded to us.
    Mr. Costello. Again, by the end of September, though, you 
will release those who have not responded.
    Mr. Babbitt. Yes, sir they will fall into one of three 
categories. They will have responded that they, in fact, have 
an ASAP or FOQA program, explain their willingness to adopt a 
program. If they don't, and those who didn't respond at all. I 
would make note for the record there are some cases, we have 
carriers that have operated under a 121 certificate because 
they operate a large aircraft. There is no point in asking 
someone to have a FOQA program of one airplane. The logbook is 
the data. So we do have to recognize that there will be some 
cases that it is perfectly okay not so are have FOQA program if 
you had just the minimum number of aircraft.
    Mr. Costello. Thank you. Mr. May, you heard Mr. Cohen's 
testimony, and as I am looking at his testimony now he says 
that our commitment to the value of this safety program is 
demonstrated by the fact that more than twice as many RAA 
members have ASAP programs for their flight attendants as do 
the main line carriers. Is that a correct statement that you 
would like to comment?
    Mr. May. Thank you, Mr. Chairman. I don't, I don't have 
specifics of how many have, how many have his regional carriers 
have flight attendant ASAP programs. I do have some data on our 
carriers and their ASAP programs. They are 171 in place and the 
vast majority of our carriers and I say that because we have 
got some small cargo operators in our membership, but all of 
our passenger carriers have extensive ASAP programs with their 
pilots, their flight attendants, their dispatchers, some of 
them have them with ground maintenance and others. So I can't 
give you a qualified answer comparing one to the other.
    Mr. Costello. Mr. Cohen, you believe that is an accurate 
statement? And how do you--what do you base that on?
    Mr. Cohen. Mr. Chairman, the FAA keeps a database of ASAP 
programs, and I believe that the most recent figure was 7 and 3 
for flight attendant ASAP programs.
    Mr. Costello. You also say, Mr. Cohen, in your testimony, 
and I quote, it is the professional responsibility of every 
professional pilot, if he or she does not feel sufficiently 
well rested, to say so and not fly. Each of our member carriers 
has a nonpunitive policy in place to allow a pilot to drop a 
trip if the pilot feels incapable of flying alertly. You heard 
Captain Prater's testimony that punitive actions have been 
taken with the regional carriers for those who have either 
refused to fly or did not want to fly. Do you want to comment, 
are you ware of any regional carrier that is taken punitive 
action against one of their pilots for not accepting a flight 
or refusing to fly.
    Mr. Cohen. Mr. Chairman I am not aware of any specific 
instances.
    Mr. Costello. Captain Prater, you want to comment?
    Mr. Prater. Yes, sir. I would hate to go down the list 
right now and I tried to keep it generic, but the managements 
at Pinnacle and Colgan have not changed their ways; the 
management at Trans States Airlines have not changed their 
ways. Do I need to go further? I have got a big book. I have 
been asking our pilots to report the type of pressures that 
management has placed on them threatening their job, giving 
them discipline, giving them time off for not just fatigue or 
sick calls but for basic things that call in to a captain's 
decision to write up an airplane, a maintenance item. Those are 
the worst practices that we have identified, and yet some 
managements are still insisting that they are going to beat 
their pilots into submission.
    Mr. Costello. The Chair thanks you and now recognizes the 
Ranking Member, Mr. Petri.
    Mr. Petri. Thank you. I wonder if could provide Dr. Brady 
with the chance to respond or comment on the different comments 
on your testimony. There seems to be a difference between 
quantity and quality or quality hours as opposed to sterile 
hours. And clearly you want to have quality hours and maybe 
lots of them. So could you comment on all this.
    Mr. Brady. Thank you, sir. I appreciate the opportunity to 
comment.
    I think that the--and all the aviation educators feel that 
the quality issue of a degree program and all that rests behind 
each of the flight hour is very important to providing someone 
with an appropriate level of experience. It is experience in 
the classroom but it prepares them for greater 
responsibilities, and if someone just went out to a local 
operator fixed base operator and achieved all of their 
certificates and ratings. That is the point that we are making 
is that the students that are graduates of these college 
programs are very structure they get a lot of background way 
beyond the FARs, Federal Aviation Regulations, in terms of what 
the requirements are for, what say, even for an ATP. They get 
way beyond that in the classroom.
    So the pilots who are coming out of collegiate programs are 
very capable of handling the responsibilities of the right 
seat, and they are mentored in the right seat. And after a 
time, they become much more capable than officers--first 
officers who not have gone through that type of training.
    I think it is interesting, too, that many of us sitting 
here at the table were products of the military system that 
provided us the proper training, and our government felt 
comfortable in placing us in command of an aircraft at less 
than 1,000 hours. I know in my case, I was being mentored at 
350 hours on the right seat of a cargo aircraft in combat, and 
when the time came for me to upgrade to aircraft commander, I 
did it at 1,000 hours.
    So I don't think that the time is the issue. It is how the 
time is spent, and I still maintain that the type of level of 
education that is being provided through AABI is a peer review 
process where we bring and industry to help create what the 
criteria are that these programs have to meet and then we go 
out and visit these institutions and make sure they are 
maintaining the standards that they say they have. So the 
pilots coming out of these very highly regulated institutions 
are very high quality.
    Mr. Petri. We have been hearing a lot of talk about the 
restructuring of the airline industry and the pressure on wages 
and entry level wages, the feeder airlines and the wealth of 
the very low wages that they are paying. Has this affected the 
college programs? You think people are partly leaving training 
because of looking at job prospects, and if they are going to 
make $20,000 a year working for a feeder airline, why would 
they pay $120,000 to go to Purdue or something like that.
    Mr. Brady. The passion to fly is, is very compelling, sir, 
and the pilots who are coming into these programs have that 
passion, that is what they want their profession to be. I wish 
that it were different. I wish that entering first officers and 
the regional air carriers were paid $40,000 a year. 
Unfortunately that is not the way it is and our graduates have 
to react to that reality. They have debts they have that they 
have to pay off. At some point, they will begin to move and 
start to make some money, but I agree that the wages are way 
too low in the air carrier industry. I am just not sure what 
can be done to affect that in terms of what a congressional 
activity might be.
    The pilots that are in our programs understand that they 
are going to start out in some fairly low wage situations. In 
fact, some of our instructor pilots, when they go into an air 
carrier, take a pay cut. So they understand that and are 
willing to--are willing to still take that job. They would be a 
lot more willing if it was 40,000 instead of 16,000, but still, 
they are willing to take those jobs because they know in the 
long run that the higher paying jobs are there once they get 
beyond first years with the air carrier.
    Mr. Petri. Mr. Skiles, could you comment on that? In your 
testimony, you say that airline flying is not a desirable 
career for experienced professional pilots. You certainly are 
such, and I wonder if you could just elaborate on that comment 
and explain what has been happening. I know in my own State, 
and you are familiar, too, Midwest airline has been taken over 
and a lot of the experienced pilots are experiencing layoffs 
and having to go into second carriers as truck drivers and 
things of that sort. So could you comment on what is happening?
    Mr. Skiles. Yes, I would like to comment on that. You know, 
in our industry, what we are finding is that as Captain Prater 
alluded to the airline pilot position is now an entry level 
position in the industry. What happens is people are gaining 
experience and then they are going to fly commuters--not 
commuters--they are going to fly for corporate, for 
fractionals, for any of the other possibilities out there in 
the aviation world, or they are simply leaving the industry all 
together. And that is a real problem that we are finding with 
retaining people in our industry, retaining experienced people 
in our industry. If you could fix that part, you would fix the 
experience problem.
    For instance, I read a book of a man named Peter 
Buffington, who wrote a book about his experiences trying to 
survive on $12,000 a year as a regional first officer. He 
eventually left the industry. He now is an engineer with Garmin 
in Kansas. I called him up. And he said if he could make a 
living wage to support his family, he would be back flying 
airplanes because as Dr. Brady alluded to, that was his first 
love. Not only that, but he could give the eight names of 
people just like him who would be back in the industry, 
experienced professional pilots with ATP licenses.
    Mr. Costello. Chair thanks the Ranking Member and now 
recognizes the gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and I want to thank 
the panel for their insights and testimony today. I want to add 
my condolences to the families and friends that were lost in 
flight 3407. It is indeed another tragic reminder that more 
must be done to strengthen the safety in our aviation system, 
that we must have one level of safety throughout the industry 
and I want to thank Chairman Costello for his leadership in 
promoting the bill to do just that.
    It is also clear from listening to you that experience 
matters, that fatigue matters and that standards matter. And 
all of us need to be working in that direction.
    I want to start with a couple of questions first to 
Administrator Babbitt. One of the things you mentioned with 
regard to experience that was the most important, but also 
challenge was setting up these mentoring programs and I would 
like you to really expand upon that in terms of how we can 
address some of those challenges to actually get those programs 
in place.
    Mr. Babbitt. Based on our regional safety forums that we 
conducted around the country we have a tremendous amount of 
feedback and throughout that several uniform elements came 
clear, thoughts on better training, scenario based training for 
example. Experience is certainly good, but experiences that 
actually enhance your decision making are very important to put 
forward before a pilot.
    And so the idea was we should be thinking about modifying 
our training scenarios where pilots are exposed more not to 
check items where you go through prescribed procedures, but 
instead put pilots in scenarios that they have not been exposed 
to before. Let them gain the experience, let me see what 
happens in a nonvolatile environment where nobody is going to 
get hurt. But you are going to learn in these and we have the 
robust capabilities for simulation today to do that.
    We also have incredibly experienced pilots that are 
available and we have new pilots coming into the industry. How 
do we arrange for that experience transfer? What forum do we 
create so that someone with Captain Prater's experience, or 
Jeffrey Skiles who is an incredible display of professionalism 
with the landing in the Hudson can impart that experience to a 
young pilot? I don't care if that pilot has 1500 hours, 2500 
hours. They haven't seen the things that some of the pilots at 
this table have seen.
    So where do we create these forums? One of the thoughts was 
that at major carriers we would have a forum bringing together 
the leadership from all of the code sharing partners: the 
pilots, the chief pilots, the safety folks from the unions. 
Bring them together, let them have quarterly reviews; let them 
design these scenarios for experienced transfer. There is 
nothing we can do to regulate it. There is just no way to get 
there. So those are the some of the things we are looking at, 
and I want to applaud everyone who contributed to these, the 
APA certainly participated, all of the unions participated. We 
have gotten a great deal of information out of these forums.
    Mr. Carnahan. Let me ask Captain Prater to comment on that 
as well.
    Mr. Prater. Thank you, Congressman Carnahan, I agree with 
Administrator Babbitt, but there is one more basic problem. The 
pilot seniority list is a tool to allow experience to be gained 
before you advance into the captain's position. At every main 
line airline, there is one seniority list. If I were to get 
hired at Continental Airlines tomorrow or U.S. Airways tomorrow 
or United Airways tomorrow, I would fly the first officer for a 
good 8 to 10 to 12 years before I assumed command. I would fly 
with hundreds of experienced captains. I would probably have 8 
or 10 years of experience to be hired, but each one of those 
main line carriers operate, if you will, or control what goes 
on in another 6, 8, or 10 regional carriers, and they move the 
flying from one to the other. As we negotiate a standard or a 
decent contract, they take the flying away and give it to 
somebody else who will run it cheaper. We have another eight or 
10 seniority lists, so what happens is if they give to it the 
cheapest operator and they have got two hundred pilots and 
overnight they have got four hundred pilots the least 
experienced co-pilot who has been flying for maybe a year is 
now captain. We have got the address that situation of moving 
that flying back and forth because the experience is never 
gained and all of the sudden you are sitting there in the left 
seat making decisions thank you.
    Mr. Carnahan. Thank you.
    Mr. Costello. Chair thanks the gentleman from Missouri now 
recognizes the gentleman from Tennessee Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I have got several 
questions, but Mr. Babbitt, in all these many materials we were 
given, there was one mention that you gave a speech a couple 
weeks ago in which you said you are not seeing consistent 
professionalism among aviation workers. What did you mean by 
that? I am a little curious.
    Mr. Babbitt. What I meant by that, and thank you 
Congressman. Nice to see you.
    Mr. Duncan. Nice to see you, too.
    Mr. Babbitt. What I meant by that was I am quite proud and 
I think the industry should be quite proud of the high level of 
professionalism but what we have, anytime we have one person 
not living up to the standards, not producing the 
professionalism that is expected across the industry that is a 
potential point of risk. That is where the system breaks down 
and when we look across the industry--I have had several 
instances--they are not all pilots. I had reason recently to 
listen to an exchange of a controller who was very 
disappointing the lack of professionalism that I heard, 
contrast that against the controller in the Hudson accident 
that First Officer Skiles was aboard, that was one of the most 
professional handlings from everybody involved. That was 
professionalism. It was personified right there.
    But we just can't tolerate any gap and so what we are 
looking to do is ferret out those areas, the weak areas. If you 
have, I mean the classic chain, 99 strong links and one weak 
one, that is where the chain breaks we have got to find those 
weak links.
    Mr. Duncan. Okay, thank you very much. I would like to ask 
Mr. Cohen and/or Mr. May, first of all, are most of your 
airlines hiring pilots at this time, and do they hire, are they 
hiring many people that have just the minimum 250 hours or are 
you finding many of them, people who are leaving the military 
or other people with experience, are there a lot of experienced 
pilots out there that you are hiring? And secondly, another 
question on this, do you think the fatigue rules right now are 
sufficient or is that, do you see that as a problem? I know on 
the 121 operations, pilots are limited to 30 hours a week in 
any 7 consecutive days. Do most of your pilots fly that much in 
a 7-day period? I am just curious about those kinds of things. 
Mr. Cohen.
    Mr. Cohen. Mr. Chairman, Mr. Duncan, so that most of our 
carriers right now are not hiring, and think that is 
industrywide, I think it is reflective. This industry once had 
overall 600,000, more than 600,000 employees. It is 300 and 
something now.
    Mr. Duncan. Right.
    Mr. Cohen. Very, very difficult time and----
    Mr. Duncan. That is what I assumed.
    Mr. Cohen. --most are not hiring now. And most of the 
carriers right now are member airlines. To my knowledge, I 
don't believe anybody is at a 250 level. Most are at 500,000, 
or 1500 maybe even.
    Mr. Duncan. That is sort of what I assumed, that because 
there are so many employees or potential employees out there 
that generally you can find people with a lot of experience, is 
that correct?
    Mr. Cohen. I think the other witnesses have, have 
characterized a very significant and long term problem, that 
the qualifications for all aviation professionals going forward 
in a very, very difficult industry. I know Mr. May can speak 
extensively to the kind of disruptions that the industry has 
always gone through, and maybe as bad as ever now and again, 
just a number of employees right across all levels, this is all 
true.
    Mr. Duncan. Mr. May.
    Mr. May. Congressman, we are very proud of the 
qualifications of our pilots and our crews. We think we have 
some of the finest people in the world flying our aircraft. The 
vast majority of our pilots are ATP qualified. We have advanced 
qualification programs that are in place at the majority of our 
carriers. We continue to work to upgrade the professionalism of 
our pilots. We have mentoring programs that are currently 
aggressively in place for pilots and so we think the world of 
the professionalism and.
    Mr. Duncan. What about the fatigue question, is there, do 
you see that as much of a problem?
    Mr. May. We participated actively in the ARC that the 
administrator called. There were a series of recommendations 
made to the ARC. I think I am safe to say that the vast 
majority of those recommendations were those that Captain 
Prater's outfit and our team agreed upon. In some instances, 
they were longer duty days where they made sense, some much 
shorter where it made sense, but the key is they were all 
science-based and that is what is important. So I know that the 
administrator intends to come out with a rulemaking following 
the ARC, and we will all look forward to participating in that 
rulemaking process.
    Mr. Duncan. All right. Thank you very much.
    Mr. Costello. Chair thanks the gentleman and I might add on 
the issue of fatigue if my notes are correct, and Mr. Cohen, I 
will get to this later, but you make a statement in your 
written statement that commuting is a lifestyle choice, not a 
necessity dictated by economics. Regional airlines have crew 
bases in dozen attractive communities throughout the country, 
and it is kind of an incredible statement to me that it is 
lifestyle choice.
    And when I look at First Officer Shaw on the Colgan crash, 
she left Seattle on February the 11th at 10 o'clock eastern 
time, arrived in Memphis after getting on a FedEx flight, a 
jump flight, and arrived at 2:30 eastern time in the morning, 
a.m., left Memphis for Newark at 4:18 eastern time in the 
morning, a.m. Arrived in Newark at 6:23 a.m. Eastern time, and 
then the flight left Newark at 9:19 p.m. Eastern time, 24 hours 
later. She was commuting most of that time.
    It is hard for me to believe that that is a lifestyle 
choice and it's not driven by economics. The Chair now 
recognizes the gentlelady from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. I apologize 
for being a little late. I had a markup in another Committee.
    I met Monday with about 50 or 60 pilots and I was 
personally a little concerned about what they consider to be 
their highest priorities. I was talking about outdated 
technology and they were talking about the human kind, what the 
pilots have concerns about as relates to safety and I want to 
make some of these statements that I wrote here, and I would 
like all of you to comment on them.
    For overseas travel especially, they desire to have 
marshals, but there has not been any change in the funding, so 
therefore, many times if they want them, the pilot has to pay 
for them himself from personal funds and they feel that they 
are having to use vacation time for their training because they 
are not given time off for that, time to train.
    And the 8 hours that they are limited to flying continually 
ends up being sometimes 12 to 14 hours actually because they 
have to leave one place, go to another one, wait 3 or 4 hours, 
and then fly that 8 hours and over water flying can be very 
tiring for international travel.
    But they usually have to leave late in the evening and they 
are headed for Heathrow, which is the busiest airport, I think, 
in the world. After trying to sleep all day they are very, very 
tired by the time they get that flight to Heathrow. There is 
concern about extending this time and they feel that if they 
are going to move it at all it needs to be reduced.
    This one I didn't really understand, so clearly, it is my 
writing. There is a loophole called the deadhead that is 
causing many hours and then deregulation of airlines on--gave 
them no deregulation. They have been much more regulated. That 
concerns me. Let me tell you why. I have flown from Washington 
to Dallas and Dallas to Washington for 17 years just about 
every weekend. I have been very, very proud of the record of 
the pilots that are on those airlines. So I am very concerned 
about not only their training, but also their rest. Could you 
comment on any attention that might be given to these concerns? 
Yes.
    Mr. Babbitt. Absolutely, let me--your questions essentially 
fall into two categories as I heard them, and please correct me 
if I misunderstood. The first I think has to do with Federal 
Flight Deck Officers and their ability to carry weapons on 
board aircraft. That is a little different area for us-- that 
is a voluntary program. I think Captain Prater could probably 
speak to that better than I, so I will let him.
    The second category of issues you raised has to do with the 
on-duty times, and flight times, and we do need to make a 
distinction. There are two limits. One is the amount of time 
that a flight pilot can be on duty, that means go to work, 
maybe fly, maybe not fly; just be on duty, prepared to fly. 
Sometimes maintenance delays occur, so we track that time. 
There is maximum amount of time that you can be on duty. The 
second limit is the amount of time you can actually fly the 
aircraft. Today's current rules limit that to 8 hours of 
flying. Can that be extended? The actual 8 hours cannot under a 
normal circumstances unless obviously you are in the air and en 
route and delays occur then you would have to go over.
    But let me tell you where we are going, at least what the 
ARC as reported to us. The aviation rulemaking committee has 
addressed some of these things. Number one, duty time in the 
future, in fact, counts--I am sorry, deadheading time would 
count as duty time so that it is recognized. That is important.
    Secondly, science comes into this. Flying 8 hours with one 
landing is one scenario. Flying 6 hours with eight landings all 
of them approaches to 200 feet is an entirely different 
scenario. We now recognize that. Currently, there is only one 
duty period of time. It has a maximum. It doesn't matter 
whether you show up at midnight or at noon, it is the same.
    The new recommendations recognize that people have 
circadian rhythms, and it takes into account when you go to 
work. When normal people go to work, 8 or 9 o'clock in the 
morning you are well rested, that is fine. Go to work at 
midnight. Would you be prepared to stay on duty for 15 hours? 
Of course not. So the new recommendation takes into account all 
of these things, hopefully, to address them.
    I would note for the record there were 18 people, 18 inputs 
to this Committee from a variety of cross sections in the 
industry, including scientists and doctors who have made 
fatigue studies, that I know essentially came to consensus with 
few exceptions.
    Ms. Johnson. Any other comments?
    Mr. Costello. The Chair thanks the gentlelady, and now 
recognizes the gentleman from Michigan, Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman and this has been very 
interesting and useful hearing.
    I would like to get back to Dr. Brady and some of the 
comments he made. And also relate that to some of my 
experiences. First of all, how many of the students that go 
through your university wash out or try to go through your 
university actually wash out because there is a judgment made 
that they simply will not be able to make the grade to 
commercial pilot?
    Mr. Brady. Yes, sir, our attrition is about 40 percent on 
this particular professional pilot degree for the entire 4 
years.
    Mr. Ehlers. 40 percent.
    Mr. Brady. 40 percent of the entering class yes, sir.
    Mr. Ehlers. Is that typical for all the other universities?
    Mr. Brady. That is pretty typical because it is a self-
select coming into the program so the process that they go 
through to determine whether or not and we determine whether or 
not they are a good professional pilot material is a process 
that takes time. It takes them to interact with the curriculum 
and then determine, and we determine whether or not they can 
successfully do that. So it is about 40 percent, and that is 
pretty standard for a 4-year degree.
    Mr. Ehlers. And for what reason do they typically wash out? 
Is it lack of intellectual ability to make the types of 
calculations that pilots have to make? Conceptual difficulties, 
or is it a matter of physical inability to manage controls and 
so forth?
    Mr. Brady. If you ask them, they usually relate some 
personal issue, but many cases it is because of funds because 
they have don't have the funds to continue in a professional 
pilot program. The flying costs a good deal of money to get all 
of those ratings. So many of them wash, they wash themselves 
out because they move into another program simply because they 
run out of funds, but we have students that are simply 
incapable of mastering the curriculum and those of course we 
have to move out of the program.
    Mr. Ehlers. And what about physical ability?
    Mr. Brady. Not too often no, sir, because coming into the 
program they have to have--be able to pass an FAA--what is 
called an FAA class 2 medical. So if they can't do that, they 
can't enter the program even though that is not required at 
that point later on, they are going to have be able to pass 
that. So we use that as an entry requirement, and many of our--
and I am speaking now from my own university--that many of the 
universities have that same issue. They come in with an 
appropriate medical qualification before they enter the program 
or they don't enter the program.
    Mr. Ehlers. Well, I would, frankly, I would have been 
delighted had I been able to attend your university or one of 
the others as instead over a period of quite a few years of 
taking flying lessons from a number of different instructors 
and different locations across the country, and I have been 
really struck by the variability in the ability of the 
instructors to communicate to a student and also to train a 
student properly. So frankly, I would feel rather uncomfortable 
hiring pilots who don't experience a good curriculum, but just 
take pot luck with whatever instructors they might get. That is 
just a side comment, and Mr. Babbitt, you can take it for what 
it is worth.
    Turning to you, Mr. Babbitt, are you satisfied that the FAA 
can set standards that can assure that the pilots that are 
flying are capable pilots and how does this system work? If you 
have a number of pilots who take lessons from different 
instructors and just gradually work their way in, do you have 
any good measures of their ability to fly? Do you have 
standards that are easily quantified beyond argument so that 
you can make good judgments as to whether or not this person is 
safe to fly?
    Mr. Babbitt. Yes, sir, I think we do. We are focusing here 
on a tragedy, but I would note that today we are going to have 
70,000 operations in the air and you will have the same thing 
again tomorrow. Every day we are going to carry 800 million 
people. For 29 months we were without an accident and then we 
had a tragedy. If we never had another one that would be fine 
with me. One is too many. But the standards I think have shown 
themselves to be awfully good and while we can argue about some 
criteria, what I think is wholesome in this debate that you are 
hearing right here at this panel is we are trying to find the 
best way. Is it more curriculum? Is it more academia? Is it 
more actual experience? Is it checking? Is it better simulation 
and training?
    But at the end of the day we have standards and those 
standards are reinforced over and over again. Then you think 
about what an airline pilot does once they have risen to the 
level where they are flying passengers for a living. They take 
several check rides a year, they take line checks, they fly 
with other pilots, they have professional standards programs, 
FAA inspectors make spot checks all the time. Air carrier 
inspectors can arrive and ride the jump seat and do so. So 
these are unannounced random tests. No other profession--I 
literally would defy you to find another profession that has 
professionals that are as well checked as the airline pilots 
that fly the passengers of this country, and I think the 
product of that is an incredible safety record.
    Mr. Ehlers. I was impressed in reading all the materials 
and listening to some of the transcripts of the flight and of 
the accident in Buffalo and I was just appalled. I wondered how 
these individuals ever got into a cockpit. That is why I asked 
the question, are the standards tight enough to detect this at 
some point?
    Mr. Babbitt. Well, your observation is a good one and I 
made a challenge at a recent safety forum where I told every 
pilot in the room and there were 600 of them, that if any of 
them listened to that transcript and didn't just hang their 
head, they didn't deserve to be professional pilots.
    Mr. Ehlers. Yeah, I agree with that. Well just one last 
comment. In the good old days before 9/11, members of this 
Committee were allowed to fly in the jump seat. I found that 
extremely useful for my work here on this Committee because 
having never flown anything with more than one engine and not a 
very powerful engine at that. I was also struck in doing that 
at how some pilots were absolute--absolutely magnificent in 
their control of the airplane. They seemed to be at one with 
the airplane and they knew what was happening before the 
airplane even knew what was happening. It was just astounding 
and I saw what a high standard they had. Not all of them were 
in that category but the others that were there were certainly 
competent. Some people just seemed to have the magic touch. As 
I say they really become one with the airplane and that is 
really what you are looking for I think, someone with that 
capability, not just intellectual knowledge, but the 
coordination that is necessary to handle an airplane. And it is 
just very impressive. It was very impressive for me to fly 
there and see the quality of the pilots that operate the 
airplanes in this country. Thank you very much. I yield back.
    Mr. Costello. The Chair thanks the gentleman from Michigan, 
and now recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. Thank you for 
convening this meeting today and for the panel assembled. Let 
me just first start by saying that I agree with the belief that 
experience does matter and Mr. Brady suggested in his testimony 
and his further subsequent remarks that time doesn't constitute 
quality, that time in the airplane doesn't constitute quality, 
but my argument is how to you obtain that quality? How do you 
obtain that quality I know from my military training, as well 
as those who have gone through military training that the most 
intensive part of your training happens before you even put 
hands on the airplane, through simulator, through the 
instruction that you received on the ground, and we find that 
that has been a robust part of our training.
    However, what is missing from this discussion right now, we 
are talking about fatigue and we are talking about number of 
hours, but we are not talking about the training that these 
individuals received because the combination of suspect 
training and low hours leads to tragic consequences like we are 
realizing right now.
    If you will indulge me, Mr. Chairman, just to read a couple 
of quips from the NTSB report, the FDR indicates that the crew 
moved the flaps to 10 degrees. Two seconds later, the stall 
warning stick shaker activated. The autopilot disconnected the 
same time the stick shaker activated. The crew added power to 
75 percent torque. The airplane began a sharp pitch motion up 
accompanied by a left flow, followed by the stick pusher being 
activated.
    In that NTSB report, they suggest that Colgan pilots who 
are trained on the Q 400s, those that were interviewed, had 
received a pusher demonstration or instruction in the Q 400. 
Some asked for that, but Q-4 check pilots interviewed that 
demonstrational instruction of the aircraft pusher system is 
not part of the training syllabus or recurrent training on the 
Q 400.
    So you are telling me that these pilots that climbed in 
that airplane on that fatal day were not trained how to recover 
from a full stall, from a full stall and we are talking about 
hours. You could take the most, you could take the most 
qualified pilot with thousands of hours and put him in an 
airplane, not adequately trained, and I would argue that they 
would not be able to recover from that sort of scenario. So we 
need to include in this discussion the type of training that 
these individuals are receiving prior to climbing into a 
cockpit and flying so many folks around.
    Now I want to be clear about this, the NTSB, since 1978, 
has been pushing the FAA to include in their training not only 
stall recognition, but stall recovery procedures and forcing 
airlines and their respective companies to incorporate this 
kind of training syllabus in their training and they have not 
done that. The NTSB says because of these examples, the NTSB 
advises that training in stall recovery should go beyond the 
approach to a stall and include training in the recovery from a 
full stall condition. These folks on that day did not know how 
to recover from a full stall condition, and that is 
unacceptable, in my opinion. And this panel today, I want Mr. 
Babbitt to commit to me and to the members of the panel, I know 
you just got here, sir, but I want you to commit to me that you 
are going to listen to the NTSB's recommendations and force 
these air carriers that are taking low houred pilots, low 
houred aviators and putting them in training conditions that 
are suspect and we are going to incorporate that into this 
discussion.
    Mr. Babbitt. Thank you for your observations and I 
certainly have that commitment. We certainly move forward on 
that commitment. I think you may have missed some of the 
dialogue here earlier, but we have a proposed revision to 
training today. There are a couple of things if I could, you 
don't get a private pilot's license without having demonstrated 
the ability to recover from a stall and you don't get a private 
pilot's license without recognizing an approach to a stall. A 
commercial license requires the same thing. It actually 
requires complicated recovery from a complicated stall. Every 
airline teaches approach to stall and recovery. What went wrong 
in 3407, is that they failed to recover from the warning of a 
stall. So a lot was missed here.
    The shortcoming here was a lack of actual simulation in 
training and that was a shortcoming, one that needs to be 
overcome. We need to revise the training so that anything that 
can possibly happen in an airplane, the pilot has seen before, 
has been demonstrated to him over and they understand the 
techniques to recovery and the path way back to safe flight.
    So yes, we are addressing those issues. They are 
complicated and as I indicate in my testimony earlier, our 
training revisions received some 3,000 pages of comments which 
we have to digest in by our Federal procedures rules, but we 
will.
    Mr. Boccieri. Thank you, Mr. Babbitt. There was a series of 
complications that led to this. They were flying at air speeds 
that were not indicative of flying into icy conditions, almost 
34 knots below what the book recommended they fly. That could 
have been a part of experience or quality perhaps and arguably, 
but this--just the aircraft pusher system is not part of the 
training syllabus for Colgan, and I just want to be clear about 
that, that this is not even part of their training syllabus, 
how to recover from a full stall. Of course they should have 
never gotten into a stick shaker condition which is a stall 
first indication of a stall recognition that you are going to 
approach a stall, but after they misapplied the procedures or 
they didn't do this correctly, there was no training beyond 
that. So once they crossed their line, that line of the stick 
shaker in my opinion they were in uncharted area.
    Mr. Babbitt. I don't disagree. Starting with situational 
awareness there was an incredible lack of situational awareness 
in that accident. The professionalism lapsed--that we 
discussed. There isn't a pilot on this panel that if the stick 
shaker went off, I can tell you the only thing that would have 
stopped those paddles for me was the firewall, and I think that 
is true all the way across the board. Why full power wasn't 
applied is a question that looms with every professional pilot, 
but the fact remains we learn from this now and we make sure 
that this never happens again.
    Mr. Boccieri. Just to close, Mr. Chairman, there were 5,623 
flying hours on that airplane that day. That seems to me like 
that is a very experienced crew, but without the proper 
training. Without the proper training it doesn't matter how 
many hours you have and that has got to be a part of this 
discussion. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman from Ohio. And 
he knows and we want you to know that in H.R. 3371, the safety 
bill that we had discussed earlier and introduced many of these 
issues have been addressed and even since the legislation was 
introduced they have been strengthened and worked out at the 
staff level. When we go to the floor, they will be contained in 
the safety bill, and we thank you not only for your comments 
and questions, but for your contribution to putting the bill 
together as well.
    Chair now then recognizes the gentleman from Arkansas, Mr. 
Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. Mr. Babbitt, the 
sterile cockpit rule violations have been notable factors in 
both the Lexington and the Buffalo plane crashes. I guess the 
question for us is very difficult. How is the FAA going to step 
up enforcement of the rule? How do you actually enforce that 
rule?
    Mr. Babbitt. The sterile cockpit rule and for 
clarification, that is from the, you know, the time of taxi out 
until 10,000 feet, and then returning, all conversation in that 
zone is limited to operational conversations only. That is a 
very difficult for us to enforce. Currently we do not monitor, 
however we do have several vehicles today, as I indicated, 
airlines have check pilots that ride. They make spot checks. 
Every pilot gets several line checks a year. The FAA itself 
again, air carrier inspectors ride. If a bad habit is noticed, 
they are going to bring it to their attention. But again, there 
are so many things that you simply can't legislate. It does go 
back to the call I have made to the industry and to the pilot 
unions to revisit professionalism. The way we are going the 
monitor that is when one pilot begins talking at 8000 feet, the 
other pilot says we are in a sterile environment, I am sorry, 
we are going to talk about this on the ground. That is the way 
we are going to enforce it.
    Mr. Boozman. Let me ask you, Captain Prater, would you guys 
support the development of an audit system for pilot 
professionalism on the flight deck?
    Mr. Prater. I missed the first part of the question, sir.
    Mr. Boozman. Would you all support the development of an 
audit system for pilot professionalism on the flight deck? In 
other words, would you support something in that nature to help 
with this problem?
    Mr. Prater. Well, I am not exactly sure what the proposal 
would be, but we believe that----
    Mr. Boozman. I guess that is up for grabs in a sense that, 
as Mr. Babbitt said, you know, how do you do that? We do have 
the--we have the regulation now, so it is easy to regulate 
these things, but the enforcement. How do, how do you develop a 
system so that that the co-pilot or the pilot does say that?
    Mr. Prater. Well, that is basically the system that we do 
have today. Now does that system break down? Do the human 
failings of two aviators come out at the wrong time? It is 
possible. We saw it in 3407. But I am going to back up just a 
second if I may, sir. Those airmen, those aviators were 
certified by the FAA. They had passed every check ride given by 
their company check airman. The result of that flight was, yes, 
on their shoulders and they bore the brunt of it, but they did 
pass the systems check rides. They had been certified.
    Their time in the cockpit, unfortunately, did not come 
together as the highest in professionalism. We can monitor each 
other and that is what you normally see. If somebody gets out 
of line on the cockpit, the other guy, and it may not be the 
captain, it may be the first officer say, let's get back to 
business here. You break the chain that leads to an accident. 
We refer to it all the time. I am saying it happens 99 percent 
of the time, unfortunately, the consequences of that 1 percent 
is brutal.
    Mr. Boozman. How about you, Mr. Skiles?
    Mr. Skiles. I would echo Captain Prater's comments on that, 
but I would also like to add that once again, it is matter of 
professionalism in the cockpit. If you get professional, 
trained qualified aviators who understand the value of their 
training, of rules such as this, the sterile cockpit below 
10,000 feet, you solve all of these problems that we are 
finding in the industry today. It is a matter of getting 
professionals back in the cockpit. Thank you.
    Mr. Boozman. Thanks. I agree, you know you have 
professionals playing football and you have professionals 
playing, you know, basketball and whatever but you do, even 
though they are very professional, they have gotten to a very 
high degree of skill, they break the rules and you have a 
referee to call them down and you move on. So I guess, you 
know, the question is, you know, how do we, working together, 
not, we have already got the mandate there, but working 
together we do see a situation where in two cases it broke 
down, you know, that that was going on when it shouldn't have 
gone on. So again, hopefully we can work together and do a 
little bit better job of enforcing that. So thank you very 
much.
    Mr. DeFazio. [Presiding.] The Chair recognizes the 
gentlewoman from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman my first question 
is for Mr. Babbitt. Mr. Babbitt, in Mr. May's testimony on page 
4, he lays out several recommendations. In Mr. Cohen's 
testimony in section four he lays out five recommendations and 
then again also on Mr. Cohen's testimony on page two. Have you 
read their testimony, are you familiar with the recommendations 
that they have provided?
    Mr. Babbitt. Thank you. I did, in fact. However, I don't 
have them in front of me and I don't recall the specific 
recommendations. Were they operational?
    Ms. Richardson. Yes. And first of all, sir, I have got 4-1/
2 minutes, and I need to ask several questions so we have got 
to go quick. You are acknowledging, yes, you have them. Have 
you read them and what are you going to do to implement them?
    Mr. Babbitt. Well, I have read their testimony. I don't 
have them in front of me, I am sorry. If you could be specific 
with just a general quick recap of the recommendations.
    Ms. Richardson. We have limited time. On page 4 of Mr. 
May's testimony, at the very top, it talks about implementing a 
policy of asking pilot applicants to voluntarily disclose FAA 
records and so on. In Mr. Cohen's testimony, recommendations to 
Congress, he lays out four or five key points. Let me just 
suffice to say we would ask of this Committee that you would 
take into account the testimony that is been provided and 
address the recommendations.
    Mr. Babbitt. Yes, and we have.
    Ms. Richardson. And if you could get a response back to 
this Committee.
    Mr. Babbitt. Okay. We will certainly do that. Currently we 
have already suggested to every carrier that they ask that 
question of any future hire; and secondly, that they would 
essentially give a raised eyebrow to anyone who refused to 
offer that access because of the Privacy Act you can't demand 
that however if the pilot won't give you the authority to check 
his pilot records that should raise a question in and of 
itself.
    Ms. Richardson. Okay, but Mr. Babbitt, what I am asking is 
in the testimony today you have several members here who have 
supplied you with very good recommendations of things that 
should be considered. Do we have your commitment to read them, 
to follow up with them with this Committee of the responses of 
what is going to be done?
    Mr. Babbitt. You absolutely do.
    Ms. Richardson. Okay, thank you, sir. Also it says that 
there was a meeting, and Mr. Cohen's testimony said they worked 
closely with the major airplanes, the FAA, the labor 
organizations, to discuss openly and candidly the safety issues 
most affecting our industry and to set a near term safety 
agenda. Are you familiar with that agenda?
    Mr. Babbitt. I am.
    Ms. Richardson. Okay. Can you give it to this Committee?
    Mr. Babbitt. Yes. We set forth in the Call to Action a 
series of steps which included FAA inspections of training, 
which we laid out in a two-step scenario. We had other safety 
initiatives and the Call to Action brought together a number of 
groups across the Nation. We have started an aviation 
rulemaking committee to study the flight time and duty time 
issues and fatigue. I would suggest to you that in the Olympics 
of regulatory procedures we just set a 3-minute mile. That 
Aviation Rulemaking Committee has come back to us with a draft. 
We will get our rule out for its executive review probably as 
quickly as any rule that has come out of the FAA in recent 
history. So we have a number of initiatives underway we will 
continue to work with the industry, and of course, welcome your 
input and the committee's input.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 52441.014
    
    [GRAPHIC] [TIFF OMITTED] 52441.015
    
    Ms. Richardson. Okay. My input would be, Mr. Babbitt, that 
we need things to be done now. And when you say, you know, 
record of FAA, that doesn't seem very positive to me. We have 
people like myself and many people here in this room that are 
traveling every single day. So as far as I am concerned, it is 
things that need to be done now, not, you know, as we are 
working through it. So that would be my feedback.
    Mr. Babbitt. I wouldn't disagree. However, I am bound by 
the Administrative Procedures Act, and as much as I wish I 
could make rules instantaneously, there are rules and 
procedures that require us to go through a number of steps in 
the regulatory process, and we are working as quickly as we can 
within that framework.
    Ms. Richardson. Are you saying, sir, that the procedures do 
not allow, if you know that we have lost lives and things have 
occurred, you don't have a process in place of where you can 
move forward to expedite to get this stuff done?
    Mr. Babbitt. We took the steps that we could as quickly as 
we could in terms of advisories, and we have the capability of 
putting out safety action items for operators. We have taken 
advantage of those where we could. That is why the call to 
action was made. However, to change a rule there are 
constraints on that that I do not have the ability to override.
    Ms. Richardson. Okay. Could you supply to this Congress 
what those constraints are?
    Mr. Babbitt. Surely.
    [Information follows:)
    [GRAPHIC] [TIFF OMITTED] 52441.016
    
    [GRAPHIC] [TIFF OMITTED] 52441.017
    
    [GRAPHIC] [TIFF OMITTED] 52441.018
    
    [GRAPHIC] [TIFF OMITTED] 52441.019
    
    [GRAPHIC] [TIFF OMITTED] 52441.020
    
    [GRAPHIC] [TIFF OMITTED] 52441.021
    
    [GRAPHIC] [TIFF OMITTED] 52441.022
    
    [GRAPHIC] [TIFF OMITTED] 52441.023
    
    [GRAPHIC] [TIFF OMITTED] 52441.024
    
    [GRAPHIC] [TIFF OMITTED] 52441.025
    
    [GRAPHIC] [TIFF OMITTED] 52441.026
    
    [GRAPHIC] [TIFF OMITTED] 52441.027
    
    [GRAPHIC] [TIFF OMITTED] 52441.028
    
    [GRAPHIC] [TIFF OMITTED] 52441.029
    
    [GRAPHIC] [TIFF OMITTED] 52441.030
    
    [GRAPHIC] [TIFF OMITTED] 52441.031
    
    [GRAPHIC] [TIFF OMITTED] 52441.032
    
    [GRAPHIC] [TIFF OMITTED] 52441.033
    
    [GRAPHIC] [TIFF OMITTED] 52441.034
    
    [GRAPHIC] [TIFF OMITTED] 52441.035
    
    [GRAPHIC] [TIFF OMITTED] 52441.036
    
    [GRAPHIC] [TIFF OMITTED] 52441.037
    
    [GRAPHIC] [TIFF OMITTED] 52441.038
    
    [GRAPHIC] [TIFF OMITTED] 52441.039
    
    [GRAPHIC] [TIFF OMITTED] 52441.040
    
    [GRAPHIC] [TIFF OMITTED] 52441.041
    
    [GRAPHIC] [TIFF OMITTED] 52441.042
    
    [GRAPHIC] [TIFF OMITTED] 52441.043
    
    [GRAPHIC] [TIFF OMITTED] 52441.044
    
    [GRAPHIC] [TIFF OMITTED] 52441.045
    
    [GRAPHIC] [TIFF OMITTED] 52441.046
    
    [GRAPHIC] [TIFF OMITTED] 52441.047
    
    [GRAPHIC] [TIFF OMITTED] 52441.048
    
    [GRAPHIC] [TIFF OMITTED] 52441.049
    
    [GRAPHIC] [TIFF OMITTED] 52441.050
    
    [GRAPHIC] [TIFF OMITTED] 52441.051
    
    [GRAPHIC] [TIFF OMITTED] 52441.052
    
    [GRAPHIC] [TIFF OMITTED] 52441.053
    
    [GRAPHIC] [TIFF OMITTED] 52441.054
    
    [GRAPHIC] [TIFF OMITTED] 52441.055
    
    [GRAPHIC] [TIFF OMITTED] 52441.056
    
    [GRAPHIC] [TIFF OMITTED] 52441.057
    
    [GRAPHIC] [TIFF OMITTED] 52441.058
    
    [GRAPHIC] [TIFF OMITTED] 52441.059
    
    [GRAPHIC] [TIFF OMITTED] 52441.060
    
    [GRAPHIC] [TIFF OMITTED] 52441.061
    
    [GRAPHIC] [TIFF OMITTED] 52441.062
    
    [GRAPHIC] [TIFF OMITTED] 52441.063
    
    [GRAPHIC] [TIFF OMITTED] 52441.064
    
    Ms. Richardson. Thank you. Captain Prater, we have 
programs, aviation safety action programs, flight operations 
quality assurance programs that provide invaluable 
opportunities to uncover mistakes and to avoid catastrophes 
that might happen. What could we do to encourage greater 
participation, and how can we better help you?
    Mr. Prater. Actually, I believe that the focus that this 
Committee, the Subcommittee, as well as the FAA is actually 
motivating the industry to get on board and see the value of 
this. We have seen some positive changes from some of our 
operators who want to make these programs work, and our 
commitment, the commitment I have made to the CEOs is we will 
make those programs work. We will get the information from 
pilots, from mechanics, and we will apply it to the system. 
That is our commitment.
    Ms. Richardson. Thank you, sir. My time is expired. I will 
submit one other question into the record for Mr. May and a 
final one for Mr. Babbitt. Thank you, Mr. Chairman.
    Mr. DeFazio. Thank the gentlelady. Mr. Schauer.
    Mr. Schauer. Thank you, Mr. Chairman. I would also like to 
thank Chairman Costello for his leadership. First, Mr. Loftus, 
I would ask you to accept from my constituents in the Michigan 
seventh district on behalf of all of the families of Flight 
3407 our sympathies and best wishes. My district, my hometown 
is Battle Creek, Michigan. It is the home of Western Michigan 
University's College of Aviation. Mr. Brady mentioned that in 
his testimony. I want to focus on quality. And Dr. Brady, I 
would like to ask you some follow-up questions to your 
testimony. I couldn't be more pleased and agree more that a 
focus in all of our training programs should be on quality.
    You cite that a very high percentage of commercial airline 
pilots come from collegiate programs. That is what I know in my 
hometown. I see the Bronco aircraft flying around our skies 
regularly. I have sat in their flight simulator, and they 
really do a fabulous job. And I think we are here to talk about 
preparation for industry. And so I have read your testimony and 
studied it and I guess I want to ask you about whether there is 
a difference between meeting the educational goals for 
accreditation versus meeting the rigors of commercial airline 
operations. Specifically, the transfer of knowledge in high 
tech aircraft is something that Western Michigan University's 
program is focused on. I know they feel that they can meet that 
technologically advanced aircraft or TAA standard which is 
required by the airline industry. I understand it isn't 
necessarily required for accreditation or for completion of 
collegiate programs. Can you talk about that difference and 
whether you agree that collegiate programs should meet that 
industry standard?
    Mr. Brady. Yes, sir, I do. I do agree with that, that those 
programs should have those kind of systems and processes. I 
would like to also compliment Western Michigan on its 
performance in the National Intercollegiate Flying Association 
Meet. They did very well. Most of our programs that are 
accredited have some form of high tech environments that the 
pilots are able to interact with. Many of them have aircraft 
that are equipped with glass cockpits, for example. Many of 
them have simulators that, if the actual aircraft doesn't have 
it, many of them have simulators that are equipped with glass 
cockpit procedures. And all of them will go way beyond what the 
FAA requires in terms of a minimum set of performance criteria 
in meeting their curriculum outcomes.
    The whole process of AABI accreditation goes way beyond 
what the FAA would require as minimums. And all of the programs 
that are accredited have access, and most of them have high 
tech glass cockpit opportunities. So the pilots that are coming 
out of these programs are very highly skilled. And that is part 
of my issue here is that the ATP-only requirement is a one size 
fits all, and it doesn't work.
    One size doesn't fit all because there are different levels 
of quality coming out of flight education programs from an FBO 
all the way up to, and I say up because that is the way it is, 
up to institutions of higher learning that produce professional 
pilots.
    Mr. Schauer. Thank you. Would anyone else on the panel like 
to comment?
    Mr. Prater. I will take just a brief shot at it. I believe 
that the universities are producing very good, basic commercial 
airline pilots. But they are not making them into an airline 
pilot. We are missing a step for that lack of experience. And I 
think that is where Administrator Babbitt has focused on. That 
is where we are focusing on. What is that next step to turn 
somebody who has had that basic 200 hours worth of training 
into somebody who can face the rigors of real life scheduled 
flying service?
    Mr. Schauer. Captain, in follow-up, would training in 
technologically advanced aircraft, TAA, help address that 
shortcoming?
    Mr. Prater. I don't believe so. It is not all about 
technology. It is about basic airmanship. Until you have seen 
what a mammatus cloud looks like or a lenticular cloud from the 
air, because you are not going to see that in the simulator, 
you are not going to know what it is until you see it. 
Hopefully you will see it with a more experienced aviator who 
will mentor you and say we are not going that way, we are going 
that way. That is the value of experience.
    Mr. Schauer. Great. Captain, thank you. Thanks to the 
panel. I will take those comments back to Dean David Powell at 
Western Michigan University. Thank you.
    Mr. Costello. [Presiding.] The Chair thanks the gentleman, 
and now recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. I want to refer 
particularly to Captain Prater's testimony. And it causes 
tremendous concern. Mainline airlines are frequently faced with 
pressures on their marketing plan resulting in the use of 
regional feed codesharing partners further down. Codesharing 
that will result in the mainline carrier exerting a great deal 
of pressure on the regional airlines to provide their service 
at the lowest possible price. The regional carriers have to 
reduce their costs to prevent being replaced by another air 
line at the end of their contract. Now we have larger regional 
carriers subcontracting with smaller regional airlines, and 
then you go on say, in some extreme cases airlines have 
outsourced the majority of their routes to regional airlines 
with pilots having as little as 250 hours of experience because 
a main line carrier furloughed its own pilots with more than a 
decade of experience. Another cost cutting tactic used by 
regional vendor airlines is endemic short staffing which leads 
to pilot pushing, fewer pilots flying more and more hours per 
month and a resultant reduction in safety. And then finally, it 
is not uncommon for training at such carriers to be conducted 
only to FAA required minimums. This raises a number of 
extraordinary issues, issues that I have been raising on this 
Committee for well more than a decade, and that would be the 
low minimums required by the FAA, which I believe leads to a 
lowest common denominator mentality, which leads to 
subcontracting or contracting with regional airlines who 
subcontract with other regional airlines, and at every step 
along the way, the people get paid less, they have less 
experience, and there is less integrity to the training 
programs of those extremely small, low budget carriers.
    Additionally, there is the issue of pay, or the ``lifestyle 
choice'' as we heard one of the witnesses refer to it. A woman 
living with her mother as an adult because she can't afford an 
apartment on her own. It is a ``lifestyle choice''. Yeah, the 
lifestyle choice is she wanted to fly an airplane and she isn't 
being paid anywhere near a living wage. I don't call that a 
lifestyle choice. I call it exploitation by a profit making 
entity. And then finally, the whole issue of the minimums. Here 
is a question. What if we raise the minimums? Now, wouldn't 
that resolve at least some of these issues of you know, chasing 
the least experienced person who will work for the lowest wage? 
Captain Prater?
    Mr. Prater. We believe that it would be a start on the 
system. We have identified what we consider the marketplace or 
systemic problems of outsourcing and its effect on having 
experience in the cockpit. In this specific accident, the fact 
that Continental Airlines had laid off their main line pilots, 
people who had 10 or 12 years of experience who could have been 
flying that airplane, the fact if there weren't so many vendors 
working off so many different seniority systems, this specific 
crew, with their level of experience and training, would have 
never flown together. The captain would have had 6 or 8 years 
of experience. That experience is out there. But here is the 
economic fix.
    We have asked the main line carriers. They are charging $25 
for your bag, they are charging $50 for your second bag or 
$100, to take 5 minutes to change your reservation. For $1 an 
hour, per passenger, we can fix these economic problems. So if 
you are going from here to St. Louis, if you would pay $2 for 
the captain and $2 for the copilot, we could pay a decent wage. 
We can't get that out of the main line carriers. And the 
regional partners, their managements have no control over 
revenue. All the decisions are made by the main line managers. 
And that is what it would take to fix those problems, so you 
wouldn't have to live with your parents when you are 30 years 
old.
    Mr. DeFazio. So $1 per hour. That means I fly weekly to the 
West coast, 4-1/2, 5-hour flight, depending on weather 
conditions, let's say it was 4-1/5 yesterday. So it would have 
cost me an extra $9 to have the most experienced best trained 
pilots. Do you think there is anybody up there who wouldn't pay 
an extra 9 bucks flying across the country or 2 bucks or 4 
bucks for a short flight to get there alive? I don't. Now, the 
question is, how do we break this vicious cycle, the lowest 
common denominator? What happens is we have some very 
responsible regional carriers who are doing a great job. But 
their problem is they are competing so-called with these low 
budget folks. I think the way to solve that is to raise the 
minimums and raise them dramatically. Administrator Babbitt, 
what do you say to that?
    Mr. Babbitt. When we talk about raising the minimum, I am 
presuming you are talking about the requirements to be hired as 
a first officer. And that is the subject of an advanced notice 
of proposed rule making that we are considering and we may 
suggest just that. Before this debate started and so forth, we 
came out and recognized that there needed to be some additional 
or at least in the FAA's belief, there needed to be some 
additional qualifications, training and experience and what our 
proposal would do would be to add all three of those 
components. The panel, in some discussion here, has taken some 
exception. Some of them believe experience should carry a 
higher value. Others, quality. That is why we have proposed 
rule makings. That is why we put out those notices and that is 
why we will take their input and craft a rule.
    Mr. DeFazio. But Administrator Babbitt, didn't you testify 
to the same issue back in the mid nineties, when you were in a 
position with the airline pilots association? And it has been 
more than a decade and now we have an advanced notice of a 
proposed rule making. How long is that going to take?
    Mr. Babbitt. Well, hopefully not long. During that interim 
time I wasn't the administrator. Now that I am involved, we are 
proposing a change in the flight time and duty time rules. That 
one has languished for 35 years. We are going to have a rule by 
the end of the year. So we are really aggressively trying to 
move some of these issues forward. We haven't touched the 
commercial pilot rating and ATP rating rules. The only 
difference was to add 300 hours. I got mine when I had 1,200 
hours. That was the requirement in 1968. It changed from 1,200 
to 1,500. That is the only change that has been made in 40 
years.
    So while people might take a little exception that it is 
taking a little too long, the fact is we are moving it and I 
will accelerate it as quickly as I can.
    Mr. DeFazio. Okay. I turn then now to Mr. May who was 
preceded some time ago by a guy named Bolger, and I had the 
same conversation with Mr. Bolger back in the early 1990s. And 
at that point he represented that, you know, he didn't think 
that we wanted to incur these costs in the system. And I said, 
well, sir, I think that you have a large and diverse group of 
airlines you represent. But aren't you putting the better ones 
who have higher standards at a disadvantage if you are 
representing the views of the ones who are the most cost 
competitive, or we might say cost cutting, or we might say some 
of the things we talked about earlier in the terms of the 
problems they are causing.
    What if we had a level playing field where we raised the 
bar a little bit? And yeah, we have heard how expensive it 
would be. Are you telling me there is that much price 
sensitivity, that someone won't fly, pay an extra buck to have, 
you know, an experienced pilot and another buck for an 
experienced copilot? I just, I don't buy it. If you are going 
to say, gee, any upward price pressure, as opposed to this 
relentless downward price pressure, is going to be detrimental 
to the industry when everybody has to play by the same rules, 
so no one is going to be at a competitive disadvantage.
    You are bringing up the bottom. The people who are already 
above them are now in actually a stronger position, and the 
ones at the bottom, yeah, they are going to have to suck it up 
a little bit and do better.
    Mr. May. Mr. DeFazio, I would put the qualifications of our 
main line carrier pilots and crews, copilots, up against any in 
the world.
    Mr. DeFazio. Sure. I got that. But they are driving the 
system and they are using more and more regionals, and some of 
the regionals are now using more and more sub regionals. They 
are driving that system with their code sharing arrangements. 
So yes, certainly they have very qualified pilots, and that is 
not what I am talking about here. I am talking about the system 
we have set up which they are facilitating, which is becoming 
more and more the public is flying on one regional carriers 
than they are on the mainline carriers.
    Mr. May. And I think Administrator Babbitt has talked about 
a number of rulemaking procedures that are underway to 
significantly elevate the qualifications.
    Mr. DeFazio. Great. Will the Association support those?
    Mr. May. Yes, we will, and we have. We participated in the 
ARC and made a series of recommendations, some of which have 
been referred to here today. And look, we are all in favor of 
having the opportunity to maintain what is still the safest 
system in the world.
    Mr. DeFazio. Right. But the one time when it doesn't work 
right is unfortunate, it is catastrophic and we want to prevent 
that if possible.
    Mr. May. I don't think any of us----
    Mr. DeFazio. And I see a bad trend here. It reminds me of 
the trend we had when Value Jet had outsourced and outsourced 
the outsourcing of their maintenance, and you got to a level 
where some people didn't know that mixing oxygen canisters and 
tires in the hull of the aircraft was a bad idea. And I worry 
that the system is driving that way now with the way these 
regional and subregional contracts are going out. I am pleased 
to hear the Association supports the higher standards, and I 
look forward to Administrator Babbitt expediting it so I am not 
back here in 16 more years talking to yet a future 
administrator about the same issue. I hope not to be here and I 
hope we have resolved the issue by then. Thank you. Thank you, 
Mr. Chairman.
    Mr. Costello. The Chair would say to my friend from Oregon 
that we are not going to wait on rulemaking. That is the reason 
that we have introduced H.R. 3371 and we are going to proceed. 
There are things that we can do that we can put into law that, 
we can pass through the House and hopefully through the Senate, 
and we will work with the FAA along the way. But we know what 
has happened in the past as far as rulemaking is concerned. It 
takes a long period of time.
    I would join others in commending Administrator Babbitt in 
expediting some things already since he has been in his 
position, and I trust that he will continue to move forward 
with this issue.
    I have a final question for some of the members of the 
panel. We have talked about, as Dr. Brady indicated, his 
concern about the disadvantage of the 26 accredited schools 
versus the flight training schools. Let me talk a little bit or 
ask a little bit about the value of classroom time versus time 
in the cockpit, time in the cockpit versus time in the 
simulator, time in the classroom versus time in the cockpit 
versus being in the cockpit over in the southern California 
airspace or the New York airspace. And I want to start with Mr. 
Skiles, and then I will work my way through the panel. If you 
would comment, the value of time in the classroom versus time 
in the cockpit versus time in the simulator.
    Mr. Skiles. Well, I would like to first of all say that we 
are very happy, we think that the AABI accredited schools do a 
great job of training our future airline pilots. But we argue 
that education is only part of what makes a complete airline 
pilot. While gaining the experience to qualify for an ATP, a 
pilot is exposed to challenging and unpredictable circumstances 
which are just not possible in a classroom. This gives them the 
opportunity to develop airmanship skills we call them. And I 
would like to define that for you a little bit.
    You know, flying is as much a skill as it is just 
knowledge. You don't become a virtuoso on a cello after a few 
lessons. Even adept training can't prepare a pilot for everyday 
line flying. You take away the auto pilot, the glide slope, the 
auto throttles and you are left with basic flying skills that 
you have developed, the ability to plan a descent to a certain 
point and be there at a certain altitude, the ability to fly a 
perfect glide profile by eye alone, the ability to judge wind 
drift on a base leg and adjust your bank angle to roll out 
perfectly aligned with the runway. These are airmanship skills. 
And this is what we find is, I think, sorely lacking in our 
industry today. They can only be achieved by experience in the 
cockpit.
    So once again, we think that education is part of the 
equation. But once again, you need the experience that you are 
going to attain as you are getting the requirements for the ATP 
license to develop those critical airmanship skills that are 
going to come to play in circumstances that you encounter in 
your everyday airline flying career.
    Thank you.
    Mr. Costello. So the bottom line is you strongly support 
the ATP?
    Mr. Skiles. Absolutely. The ATP requirement is the absolute 
minimum requirement that we should be seeing for admittance to 
our airline cockpits.
    Mr. Costello. Captain Prater.
    Mr. Prater. I would concur, but go just a little bit 
further. I think there are different ways of gaining valuable 
experience. I do think that there should be a more intense 
focus on the educational aspects, the ground school, if you 
will, provisions of becoming a pilot. We do support the 
requirement for the ATP. However, we also feel that there are 
some interim steps that can bridge the gap of just flight time 
experience. There is very little bad flight time experience. It 
all adds to one's total amount of experience. And it is not 
just in a training environment. You have to go out there and 
sometimes do it to get better.
    So we would like to see an increase in ground school, 
whether it is in the basic airmanship, private, commercial 
instrument ratings, and we would like to see it go beyond that. 
There is no real ground school for ATP. You can take--you can 
buy a $5 Acme exam and learn the answers. I would like to get 
around that. I would like to increase those requirements to get 
an ATP.
    Thank you.
    Mr. Costello. Thank you, Captain Prater. Mr. Loftus.
    Mr. Loftus. Again, I will agree with both of the pilots, 
professional pilots here at the table. I agree that there is no 
experience, other than the experience in the air there is no 
substitute for what you learn in the classroom, or the other 
way around. The classroom is a needed environment. The pilots 
that come out of the colleges and the universities are 
extremely good pilots. They turn out to be very good first 
officers and captains.
    But, again, the airlines are not an entry level position, I 
don't believe. I think that it has got to be earned. There is 
knowledge there that can't be taught in a classroom. It can 
only be learned in a plane and a simulator. I think the 
simulators are an important part of the training process. But, 
again, there is no replacement for that, all the classroom 
learning you can have, but until you fly the airplane you don't 
know how to land it. You can talk about it all day.
    Mr. Costello. Thank you, Mr. Loftus. Finally, Dr. Brady, if 
you would like to comment.
    Mr. Brady. Thank you, Mr. Costello. All of these things are 
important, blended together, to produce the ideal professional 
pilot. There is a level of classroom that is needed, and we 
believe that the academic experience in a college or university 
is the best means to attain those levels. The simulator, 
integrated with the aircraft, if it is the right kind of 
simulator, if it simulates the aircraft and there is a transfer 
of training between the two, we fully support.
    At my institution, for example, we train under what is 
called part 142, which allows simulation, the maximum amount of 
simulation, and we actually have very high level simulators for 
the Cessna 172 and the Seminole and the Canadair regional jets, 
so our pilots get trained on all of those boxes and all those 
opportunities. And you can do things in a simulator you can't 
do in an aircraft. So we very much support that.
    As far as the ATP is concerned, we don't believe that one 
size fits all. We believe there needs to be some modification 
of that so that the high quality programs are not disadvantaged 
by the low quality programs. We believe there needs to be some 
measure taken so that the ATP is not the determinant, is not 
the determining item to put the pilot into the cockpit of a 
part 121 carrier. We believe it is an inappropriate measure.
    Mr. Costello. The Chair thanks you. And I thank all of our 
witnesses for participating and testifying in our hearing 
today. As I said from the outset, this Subcommittee intends to 
uphold our commitment not only to the families of Flight 3407, 
but to the American people, that we will continue aggressive 
oversight. We will pursue bringing our safety bill to the floor 
of the House of Representatives to move it through so that we 
can--and we will be working with Administrator Babbitt and our 
stakeholders in the process.
    We think we have a good bill. We think it does many things 
that we learned from our hearing in June and again from meeting 
with many of the stakeholders represented here today. So we 
look forward to continuing to work with you. And as I said, we 
are committed to aggressive oversight to make certain that we 
improve the safety standards for the future.
    With that, the Subcommittee stands adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 52441.065
    
    [GRAPHIC] [TIFF OMITTED] 52441.066
    
    [GRAPHIC] [TIFF OMITTED] 52441.067
    
    [GRAPHIC] [TIFF OMITTED] 52441.068
    
    [GRAPHIC] [TIFF OMITTED] 52441.069
    
    [GRAPHIC] [TIFF OMITTED] 52441.070
    
    [GRAPHIC] [TIFF OMITTED] 52441.071
    
    [GRAPHIC] [TIFF OMITTED] 52441.072
    
    [GRAPHIC] [TIFF OMITTED] 52441.073
    
    [GRAPHIC] [TIFF OMITTED] 52441.074
    
    [GRAPHIC] [TIFF OMITTED] 52441.075
    
    [GRAPHIC] [TIFF OMITTED] 52441.076
    
    [GRAPHIC] [TIFF OMITTED] 52441.077
    
    [GRAPHIC] [TIFF OMITTED] 52441.078
    
    [GRAPHIC] [TIFF OMITTED] 52441.079
    
    [GRAPHIC] [TIFF OMITTED] 52441.080
    
    [GRAPHIC] [TIFF OMITTED] 52441.081
    
    [GRAPHIC] [TIFF OMITTED] 52441.082
    
    [GRAPHIC] [TIFF OMITTED] 52441.083
    
    [GRAPHIC] [TIFF OMITTED] 52441.084
    
    [GRAPHIC] [TIFF OMITTED] 52441.085
    
    [GRAPHIC] [TIFF OMITTED] 52441.086
    
    [GRAPHIC] [TIFF OMITTED] 52441.087
    
    [GRAPHIC] [TIFF OMITTED] 52441.088
    
    [GRAPHIC] [TIFF OMITTED] 52441.089
    
    [GRAPHIC] [TIFF OMITTED] 52441.090
    
    [GRAPHIC] [TIFF OMITTED] 52441.091
    
    [GRAPHIC] [TIFF OMITTED] 52441.092
    
    [GRAPHIC] [TIFF OMITTED] 52441.093
    
    [GRAPHIC] [TIFF OMITTED] 52441.094
    
    [GRAPHIC] [TIFF OMITTED] 52441.095
    
    [GRAPHIC] [TIFF OMITTED] 52441.096
    
    [GRAPHIC] [TIFF OMITTED] 52441.097
    
    [GRAPHIC] [TIFF OMITTED] 52441.098
    
    [GRAPHIC] [TIFF OMITTED] 52441.099
    
    [GRAPHIC] [TIFF OMITTED] 52441.100
    
    [GRAPHIC] [TIFF OMITTED] 52441.101
    
    [GRAPHIC] [TIFF OMITTED] 52441.102
    
    [GRAPHIC] [TIFF OMITTED] 52441.103
    
    [GRAPHIC] [TIFF OMITTED] 52441.104
    
    [GRAPHIC] [TIFF OMITTED] 52441.105
    
    [GRAPHIC] [TIFF OMITTED] 52441.106
    
    [GRAPHIC] [TIFF OMITTED] 52441.107
    
    [GRAPHIC] [TIFF OMITTED] 52441.108
    
    [GRAPHIC] [TIFF OMITTED] 52441.109
    
    [GRAPHIC] [TIFF OMITTED] 52441.110
    
    [GRAPHIC] [TIFF OMITTED] 52441.111
    
    [GRAPHIC] [TIFF OMITTED] 52441.112
    
    [GRAPHIC] [TIFF OMITTED] 52441.113
    
    [GRAPHIC] [TIFF OMITTED] 52441.114
    
    [GRAPHIC] [TIFF OMITTED] 52441.115
    
    [GRAPHIC] [TIFF OMITTED] 52441.116
    
    [GRAPHIC] [TIFF OMITTED] 52441.117
    
    [GRAPHIC] [TIFF OMITTED] 52441.118
    
    [GRAPHIC] [TIFF OMITTED] 52441.119
    
    [GRAPHIC] [TIFF OMITTED] 52441.120
    
    [GRAPHIC] [TIFF OMITTED] 52441.121
    
    [GRAPHIC] [TIFF OMITTED] 52441.122
    
    [GRAPHIC] [TIFF OMITTED] 52441.123
    
    [GRAPHIC] [TIFF OMITTED] 52441.124
    
    [GRAPHIC] [TIFF OMITTED] 52441.125
    
    [GRAPHIC] [TIFF OMITTED] 52441.126
    
    [GRAPHIC] [TIFF OMITTED] 52441.127
    
    [GRAPHIC] [TIFF OMITTED] 52441.128
    
    [GRAPHIC] [TIFF OMITTED] 52441.129
    
    [GRAPHIC] [TIFF OMITTED] 52441.130
    
    [GRAPHIC] [TIFF OMITTED] 52441.131
    
    [GRAPHIC] [TIFF OMITTED] 52441.132
    
    [GRAPHIC] [TIFF OMITTED] 52441.133
    
    [GRAPHIC] [TIFF OMITTED] 52441.134
    
    [GRAPHIC] [TIFF OMITTED] 52441.135
    
    [GRAPHIC] [TIFF OMITTED] 52441.136
    
    [GRAPHIC] [TIFF OMITTED] 52441.137
    
    [GRAPHIC] [TIFF OMITTED] 52441.138
    
    [GRAPHIC] [TIFF OMITTED] 52441.139
    
    [GRAPHIC] [TIFF OMITTED] 52441.140
    
    [GRAPHIC] [TIFF OMITTED] 52441.141
    
    [GRAPHIC] [TIFF OMITTED] 52441.142
    
    [GRAPHIC] [TIFF OMITTED] 52441.143
    
    [GRAPHIC] [TIFF OMITTED] 52441.144
    
    [GRAPHIC] [TIFF OMITTED] 52441.145
    
    [GRAPHIC] [TIFF OMITTED] 52441.146
    
    [GRAPHIC] [TIFF OMITTED] 52441.147
    
    [GRAPHIC] [TIFF OMITTED] 52441.148
    
    [GRAPHIC] [TIFF OMITTED] 52441.149
    
    [GRAPHIC] [TIFF OMITTED] 52441.150
    
    [GRAPHIC] [TIFF OMITTED] 52441.151
    
    [GRAPHIC] [TIFF OMITTED] 52441.152
    
    [GRAPHIC] [TIFF OMITTED] 52441.153
    
    [GRAPHIC] [TIFF OMITTED] 52441.154
    
    [GRAPHIC] [TIFF OMITTED] 52441.155
    
    [GRAPHIC] [TIFF OMITTED] 52441.156
    
    [GRAPHIC] [TIFF OMITTED] 52441.157
    
    [GRAPHIC] [TIFF OMITTED] 52441.158
    
    [GRAPHIC] [TIFF OMITTED] 52441.159
    
    [GRAPHIC] [TIFF OMITTED] 52441.160
    
    [GRAPHIC] [TIFF OMITTED] 52441.161
    
                                    

</pre></body></html>
